<html>
<title> - GEOSPATIAL INFORMATION: ARE WE HEADED IN THE RIGHT DIRECTION, OR ARE WE LOST?</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]





GEOSPATIAL INFORMATION: ARE WE HEADED IN THE RIGHT DIRECTION, OR ARE WE 
                                 LOST?

=======================================================================

                                HEARING

                               before the

                SUBCOMMITTEE ON TECHNOLOGY, INFORMATION
                POLICY, INTERGOVERNMENTAL RELATIONS AND
                               THE CENSUS

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 23, 2004

                               __________

                           Serial No. 108-239

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
97-132                      WASHINGTON : 2004
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
DAN BURTON, Indiana                  HENRY A. WAXMAN, California
CHRISTOPHER SHAYS, Connecticut       TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
MARK E. SOUDER, Indiana              CAROLYN B. MALONEY, New York
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
DOUG OSE, California                 DENNIS J. KUCINICH, Ohio
RON LEWIS, Kentucky                  DANNY K. DAVIS, Illinois
JO ANN DAVIS, Virginia               JOHN F. TIERNEY, Massachusetts
TODD RUSSELL PLATTS, Pennsylvania    WM. LACY CLAY, Missouri
CHRIS CANNON, Utah                   DIANE E. WATSON, California
ADAM H. PUTNAM, Florida              STEPHEN F. LYNCH, Massachusetts
EDWARD L. SCHROCK, Virginia          CHRIS VAN HOLLEN, Maryland
JOHN J. DUNCAN, Jr., Tennessee       LINDA T. SANCHEZ, California
NATHAN DEAL, Georgia                 C.A. ``DUTCH'' RUPPERSBERGER, 
CANDICE S. MILLER, Michigan              Maryland
TIM MURPHY, Pennsylvania             ELEANOR HOLMES NORTON, District of 
MICHAEL R. TURNER, Ohio                  Columbia
JOHN R. CARTER, Texas                JIM COOPER, Tennessee
MARSHA BLACKBURN, Tennessee          BETTY McCOLLUM, Minnesota
PATRICK J. TIBERI, Ohio                          ------
KATHERINE HARRIS, Florida            BERNARD SANDERS, Vermont 
                                         (Independent)

                    Melissa Wojciak, Staff Director
       David Marin, Deputy Staff Director/Communications Director
                      Rob Borden, Parliamentarian
                       Teresa Austin, Chief Clerk
          Phil Barnett, Minority Chief of Staff/Chief Counsel

   Subcommittee on Technology, Information Policy, Intergovernmental 
                        Relations and the Census

                   ADAM H. PUTNAM, Florida, Chairman
CANDICE S. MILLER, Michigan          WM. LACY CLAY, Missouri
DOUG OSE, California                 STEPHEN F. LYNCH, Massachusetts
TIM MURPHY, Pennsylvania             ------ ------
MICHAEL R. TURNER, Ohio

                               Ex Officio

TOM DAVIS, Virginia                  HENRY A. WAXMAN, California
                        Bob Dix, Staff Director
                  Dan Daly, Professional Staff Member
                         Juliana French, Clerk
            Adam Bordes, Minority Professional Staff Member


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on June 23, 2004....................................     1
Statement of:
    Evans, Karen S., Administrator of E-Government and 
      Information Technology, Office of Management and Budget; 
      Linda D. Koontz, Director, Information Management, U.S. 
      General Accounting Office; Scott J. Cameron, Deputy 
      Assistant Secretary for Performance and Management, U.S. 
      Department of the Interior; and William Allder, Jr., 
      Director, Office of Strategic Transformation, National 
      Geospatial-Intelligence Agency.............................    10
    Nagy, Zsolt, president-elect, National States Geographic 
      Information Council [NSGIC], geographic information 
      coordinator, North Carolina Department of Environment and 
      Natural Resources; Frederic W. Corle II, president, Spatial 
      Technologies Industry Association; John M. Palatiello, 
      executive director, Management Association for Private 
      Photogrammetric Surveyors; David Schell, president & CEO of 
      the Open GIS Consortium, executive director, Open GIS 
      Project; and Dr. David J. Cowen, chair, Mapping Science 
      Committee, National Research Council, chair, Department of 
      Geography, University of South Carolina....................    74
Letters, statements, etc., submitted for the record by:
    Allder, William, Jr., Director, Office of Strategic 
      Transformation, National Geospatial-Intelligence Agency, 
      prepared statement of......................................    55
    Cameron, Scott J., Deputy Assistant Secretary for Performance 
      and Management, U.S. Department of the Interior, prepared 
      statement of...............................................    42
    Clay, Hon. Wm. Lacy, a Representative in Congress from the 
      State of Missouri, prepared statement of...................     8
    Corle, Frederic W., II, president, Spatial Technologies 
      Industry Association, prepared statement of................    82
    Cowen, Dr. David J., chair, Mapping Science Committee, 
      National Research Council, chair, Department of Geography, 
      University of South Carolina, prepared statement of........   110
    Evans, Karen S., Administrator of E-Government and 
      Information Technology, Office of Management and Budget, 
      prepared statement of......................................    13
    Koontz, Linda D., Director, Information Management, U.S. 
      General Accounting Office, prepared statement of...........    19
    Nagy, Zsolt, president-elect, National States Geographic 
      Information Council [NSGIC], geographic information 
      coordinator, North Carolina Department of Environment and 
      Natural Resources, prepared statement of...................    76
    Palatiello, John M., executive director, Management 
      Association for Private Photogrammetric Surveyors, prepared 
      statement of...............................................    96
    Putnam, Hon. Adam H., a Representative in Congress from the 
      State of Florida, prepared statement of....................     4
    Schell, David, president & CEO of the Open GIS Consortium, 
      executive director, Open GIS Project, prepared statement of   102

 
GEOSPATIAL INFORMATION: ARE WE HEADED IN THE RIGHT DIRECTION, OR ARE WE 
                                 LOST?

                              ----------                              


                        WEDNESDAY, JUNE 23, 2004

                  House of Representatives,
   Subcommittee on Technology, Information Policy, 
        Intergovernmental Relations and the Census,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:07 p.m., in 
room 2154, Rayburn House Office Building, Hon. Adam Putnam 
(chairman of the subcommittee) presiding.
    Present: Representatives Putnam and Clay.
    Staff present: Bob Dix, staff director; John Hambel, senior 
counsel; Dan Daly, professional staff/deputy counsel; Shannon 
Weinberg, professional staff/deputy counsel; Juliana French, 
clerk; Colin Samples and Kaitlyn Jahrling, interns; Adam Bordes 
and Mark Stephenson, minority professional staff members; and 
Jean Gosa, minority assistant clerk.
    Mr. Putnam. A quorum being present, this hearing of the 
Subcommittee on Technology, Information Policy, 
Intergovernmental Relations and the Census will come to order.
    Good afternoon and welcome to the subcommittee's hearing 
entitled, ``Geospatial Information: Are We Headed in the Right 
Direction, Or Are We Lost?'' This oversight hearing is a 
followup to the hearing held on June 10, 2003, entitled, 
``Geospatial Information: A Progress Report on Improving Our 
Nation's Map-Related Data Infrastructure.''
    The purpose of today's hearing is to examine the progress 
made by the Federal Government since last year's hearing to 
consolidate and improve the utilization of the masses of 
geospatial data collected by departments and agencies across 
the Government and by State and local governments. This hearing 
focused on Government and industry efforts to develop standards 
for the collection and use of geospatial information to 
facilitate data sharing. In most cases, information is 
collected in different formats and standards designed for one 
specific mission, with inadequate consideration given to 
subsequent possible intergovernmental data sharing. This 
results in wasteful redundancies and a reduced ability to 
perform critical governmental operations.
    The hearing will also focus attention on the Geospatial 
Information One-Stop Initiative, one of the President's key E-
Government reforms intended to simplify the process of 
locating, accessing, sharing, and integrating geospatial data 
in a timely manner. Furthermore, during this hearing we will 
evaluate the role that the private sector plays in arriving at 
cost efficiencies and improving geospatial data quality for end 
users.
    This hearing is a continuation of the series of oversight 
hearings conducted by this subcommittee during the 108th 
Congress to keep Federal Government agencies and decisionmakers 
aggressively focused on meeting the key goals of the E-
Government Act of 2002, greater accessibility to Government by 
citizens and businesses, improving Government efficiency and 
productivity, enhancing customer service, facilitating cross-
agency coordination, and tangible cost savings to taxpayers 
through the use of 21st century technology and proven best 
practices throughout the Federal Government.
    Today's hearing is an opportunity to examine the progress 
of OMB's oversight of geospatial investments. This hearing also 
provides an opportunity to examine the cross-agency 
coordination in the collection, consolidation, maintenance, and 
sharing of that data and geospatial information systems, 
collectively referred to as GIS.
    We need to determine what programs exist across the Federal 
Government, how much is being spent on GIS programs, where that 
money is being spent, if data is shared any more efficiently 
than since our last hearing, and how the Federal Government is 
progressing in its coordination efforts with State and local 
governments.
    To achieve the goals of coordination across the Federal 
Government related to acquisition, use, sharing, and 
interoperability of GIS data, the continuing challenge of the 
development of data standards and interoperability must be 
addressed. In most cases, geospatial data is collected in a 
particular format for one specific mission, with insufficient 
consideration for subsequent data sharing. That data is useless 
to other agencies because the data was not collected in a 
standardized form and, thus, not interoperable with data sets 
other agencies may hold. This is true across the Government, as 
well as in States and local municipalities across our Nation. 
This results in wasteful redundancies and a reduced ability to 
perform critical intergovernmental functions. With the 
development of the Federal Enterprise Architecture Initiative 
and its corresponding reference models, an additional tool for 
identifying common business lines and opportunities for 
collaboration will be available.
    I am eager to hear the progress made in this direction by 
the Geospatial One-Stop Initiative, as well as by other 
agencies and organizations. Not only is Geospatial One-Stop 
engaged in the standards development process, it is also 
intended to simplify the process of locating, accessing, 
sharing, and integrating geospatial information in a timely 
way. I am likewise eager to hear about the progress made in 
that effort.
    While we expect to hear good news in the areas of standards 
development and in developing a portal for the collection and 
sharing of this data, I understand the news in the area of 
collaboration on the collection and sharing of this data is not 
as promising. Per my request, GAO prepared a report on the 
coordination and sharing of geospatial assets. The results are 
not good. GAO reports that a failure of coordination and 
oversight efforts have resulted in agencies continuing to 
independently acquire and maintain potentially duplicative and 
costly data sets and geospatial information systems. We have 
much work to do in this area to eliminate redundant spending. 
Perhaps we need to consider the creation of a central office 
responsible for the coordination of governmentwide geospatial 
efforts such as the Geospatial Information Office with OMB.
    I eagerly look forward to the expert testimony our panel of 
leaders from throughout the Government and industry will 
provide today.
    [The prepared statement of Hon. Adam H. Putnam follows:]

    [GRAPHIC] [TIFF OMITTED] T7132.001
    
    [GRAPHIC] [TIFF OMITTED] T7132.002
    
    [GRAPHIC] [TIFF OMITTED] T7132.003
    
    Mr. Putnam. Today's hearing can be viewed live via Webcast 
by going to reform.house.gov and clicking on the link under 
Live Committee Broadcast.
    I would like to welcome the ranking member from Missouri to 
our subcommittee hearing and yield to him for his opening 
remarks.
    Mr. Clay.
    Mr. Clay. Thank you, Mr. Chairman, for holding this 
hearing, and I thank all of the witnesses for taking this time 
to work with us today.
    Although this is a complex topic, with many actors and 
agencies playing a role, the issues before us today are not new 
to us. From the Department of Health and Human Services, which 
utilizes GIS technology for national health surveys, to the 
Department of Housing and Urban Development's work in combining 
housing development and environmental data, our role in 
overseeing the investments made in GIS activities and 
technology cannot be understated.
    As this committee knows from last year's hearing on GIS, I 
asked the Congressional Research Service to assess the extent 
of funding for geographic information systems across the 
Federal Government. Through that process we learned that many 
agencies either had a difficult time providing the necessary 
information, could not interpret their data on funding and 
activities, or outright ignored the request. One agency, FEMA, 
was found to be in the process of issuing a proposal to spend 
over $200 million on GIS projects, while being unable to 
substantiate their level of spending on such activities. In 
short, an agency that cannot quantify their spending cannot be 
trusted with an extensive procurement of that size. Thus, it is 
imperative that our agencies become more accountable in their 
budgeting and performance measurement activity if we are to 
develop a comprehensive, governmentwide GIS initiative.
    In addition, I am aware that GIS is being used in St. Louis 
and across the State of Missouri for a wide variety of 
important purposes. I am also aware, however, that many public 
officials across the Nation do not believe the Federal 
Government provides the type of GIS data they need to meet 
their requirements.
    That said, I am hopeful that today's hearing can categorize 
it for us exactly how much is being spent across the Government 
on GIS activities; if the programs are providing State and 
local agencies the information they need; and efforts being 
pursued to make our GIS activities more efficient.
    Again, I thank the witnesses for their efforts, and I ask 
that the full text of my remarks be included in the record.
    Thank you, Mr. Chairman.
    [The prepared statement of Hon. Wm. Lacy Clay follows:]

    [GRAPHIC] [TIFF OMITTED] T7132.004
    
    [GRAPHIC] [TIFF OMITTED] T7132.005
    
    Mr. Putnam. Without objection, your entire text of remarks 
will be included in the record.
    At this time I would ask our first panel of witnesses and 
anyone accompanying you to please rise for the administration 
of the oath.
    [Witnesses sworn.]
    Mr. Putnam. Note for the record that all of the witnesses 
responded in the affirmative.
    We will move directly to testimony.
    Our first witness is Ms. Karen Evans. Karen Evans was 
appointed by President Bush to be Administrator of the Office 
of Electronic Government and Information Technology at the 
Office of Management and Budget. Prior to joining OMB, Ms. 
Evans was Chief Information Officer at the Department of Energy 
and served as vice chairman of the CIO Council, the principal 
forum for the agency CIOs to develop IT recommendations. Prior 
to that she served at the Department of Justice as Assistant 
and Division Director for Information System Management.
    You know, if you are going to testify here every week, we 
really need to get you a new bio; you know, she is a Pisces, 
she likes long, slow walks on the beach; something. We have got 
to juice this up a little bit.
    Well, having thrown you off track a little bit, you are 
recognized for your opening remarks.

STATEMENTS OF KAREN S. EVANS, ADMINISTRATOR OF E-GOVERNMENT AND 
INFORMATION TECHNOLOGY, OFFICE OF MANAGEMENT AND BUDGET; LINDA 
   D. KOONTZ, DIRECTOR, INFORMATION MANAGEMENT, U.S. GENERAL 
ACCOUNTING OFFICE; SCOTT J. CAMERON, DEPUTY ASSISTANT SECRETARY 
    FOR PERFORMANCE AND MANAGEMENT, U.S. DEPARTMENT OF THE 
    INTERIOR; AND WILLIAM ALLDER, JR., DIRECTOR, OFFICE OF 
  STRATEGIC TRANSFORMATION, NATIONAL GEOSPATIAL-INTELLIGENCE 
                             AGENCY

    Ms. Evans. Good afternoon, Mr. Chairman and Ranking Member 
Clay. Thank you so much for the invitation to speak today. But 
I would tell you I am a Scorpio, not a Pisces, so that might 
explain some things.
    The title of today's hearing asks the question ``Are we 
headed in the right direction or are we lost?'' I believe we 
are headed in the right direction based on both the progress 
achieved to date, along with our planned next steps. However, I 
would like to stress that while progress in the last year is 
commendable, it is just the start of the work ahead of us. 
There are significant opportunities across all levels of 
Government to better leverage our geospatial assets.
    The problem is clear: although a wealth of geospatial 
information exists, it has been difficult to locate, access, 
share, and integrate in a timely and efficient manner. Many 
Federal, State, and local agencies collect and use geospatial 
data in different formats and standards based on their 
requirements. This results in wasteful spending, redundant data 
collection, and can hinder the ability of all governmental 
entities to effectively and efficiently provide information and 
services to each other, citizens, and businesses.
    At the Federal level, we are working with State, local, and 
tribal governments to resolve these issues through the 
President's Geospatial One-Stop E-Government Initiative and 
through implementation of governmentwide management and budget 
policies. As you know, the purpose of the Geospatial One-Stop 
Initiative is to provide all governmental agencies with a 
single point of access to map-related data, enabling 
consolidation of redundant data. Its goal is to improve the 
ability of public and government to use geospatial information 
to support the business of government and improve 
decisionmaking.
    Within the last year, Geospatial One-Stop has successfully 
brought us closer to these goals by making it easier for 
government officials at all levels to share, coordinate the 
collection of, and gain access to geospatial data. In its first 
months of operation last year, the Geospatial One-Stop portal 
responded to support several national disaster events, 
including Hurricane Isabel and the California wildfires. From 
one location, users of the portal could access storm tracking, 
modeling, weather information, satellite images, and regional 
and local mapping services and links to disaster-planning Web 
sites.
    On the management policy side, OMB continues to issue 
guidance to Federal agencies on coordination of geographic 
information and related spatial data activities through OMB's 
Circular A-16. This circular provides direction to Federal 
agencies to prepare, maintain, publish, and implement a 
strategy for advancing geographic information appropriate to 
their mission. The circular established the Federal Geographic 
Data Committee [FGDC], an interagency committee responsible for 
facilitating implementation of Circular A-16-related 
activities. The Geospatial One-Stop Initiative and the FGDC 
have a complimentary and mutually supportive relationship. They 
each have a role to play in coordinating Federal geospatial 
activities with State, local, and tribal governments.
    On the budget policy side, we are working to promote and 
enforce Federal geospatial requirements. During the fiscal year 
2005 budget process, OMB directed agencies to identify all 
grant programs related to geospatial information and post the 
grant announcements in grants.gov so that they are easily 
identifiable as geospatial-related grants, and report on all 
planned geospatial data acquisitions of more than $500,000 to 
the Geospatial One-Stop so it could be posted in the 
geodata.gov portal in accordance with OMB Circular A-16.
    The accomplishments of the last year also clearly reveal 
more is needed to improve coordination, communication, and 
collaboration on geospatial investments. OMB is working with 
agencies on the following activities. The first is on 
consolidation of geospatial investments. The Geospatial One-
Stop Initiative is currently developing a process to facilitate 
the sharing of existing and planned investments. Second, we are 
working to improve intra-agency geospatial coordination. Some 
agencies, such as EPA and DHS, have established a geospatial 
information officer. OMB is exploring options to solidify the 
role and responsibilities of geospatial information officers at 
the Federal agencies. And, third, we will continue to build 
partnerships with State, local, and tribal organizations and 
industry through FGDC and the Geospatial One-Stop.
    The work and the accomplishments of the Geospatial One-Stop 
E-Gov Initiative and the FGDC are important strides forward in 
our ability to leverage geospatial resources throughout the 
Federal Government. Integrating geospatial requirements into 
the budget process is another key step in promoting more 
effective use of geospatial resources. While we are headed in 
the right direction, there are significant opportunities ahead 
of us. The administration will continue to work with State and 
local governments, industry and Congress in pursuing these 
opportunities.
    I would be glad to take any questions at this time.
    [The prepared statement of Ms. Evans follows:]

    [GRAPHIC] [TIFF OMITTED] T7132.006
    
    [GRAPHIC] [TIFF OMITTED] T7132.007
    
    [GRAPHIC] [TIFF OMITTED] T7132.008
    
    [GRAPHIC] [TIFF OMITTED] T7132.009
    
    Mr. Putnam. Thank you very much, Ms. Evans.
    Our next witness is Linda Koontz. Ms. Koontz is Director of 
Information Management Issues for the U.S. General Accounting 
Office. She is responsible for issues concerning the 
collection, use, and dissemination of Government information in 
an era of rapidly changing technology, as well as E-Government 
issues. Recently, Ms. Koontz has been heavily involved in 
directing studies of interest to this subcommittee, including 
E-Government, privacy, electronic records management, and 
governmentwide information dissemination issues.
    Another frequent flier to the subcommittee, you are 
recognized for 5 minutes, and welcome.
    Ms. Koontz. Thank you, Mr. Chairman, Ranking Member Clay. I 
am pleased to participate in this hearing of the Federal 
Government's use and coordination of geospatial information.
    As you know, the collection, maintenance, and use of 
geospatial information is essential to Federal agencies 
carrying out their missions. Geographic information systems are 
critical elements used in the areas of homeland security, 
natural disasters, disease outbreaks, and countless other 
applications.
    Further, as shown in our graphic display, many entities, 
including Federal, State and local governments, and the private 
sector may be involved in geospatial data collection and 
processing relative to a single geographic location. In this 
environment, the possibility of duplication exists, and over 
the years many questions have been raised about how well the 
Nation's geospatial assets are coordinated.
    Last year I testified before this subcommittee that 
realizing the vision of a nationwide network of geospatial 
information systems is a formidable task, and that achieving 
full participation across governments in its development has 
been difficult. Today's testimony focuses specifically on how 
the Federal Government is coordinating the effective sharing of 
geospatial assets. My testimony is based on a report you and 
Representative Sessions requested that is being released today.
    Overall, OMB, Federal agencies, and various cross-
government committees and initiatives have taken action to 
coordinate the Government's geospatial investments among 
agencies and with State and local governments. For example, the 
Federal Geographic Data Committee has established Web-based 
information sharing portals, led standards setting activities, 
and conducted outreach efforts. In addition, OMB has 
established processes intended to oversee and coordinate 
geospatial investments by collecting and analyzing relevant 
agency information.
    However, these efforts have not been fully successful in 
reducing redundancies in geospatial investments for several 
reasons. First, a complete and up-to-date strategic plan is not 
in place. The Government's existing plan for a coordinated 
network of geospatial information is out of date and does not 
include specific measures for identifying and reducing 
redundancies. Federal agencies have not always complied with 
OMB direction to coordinate their investments. Many agency 
geospatial data holdings are not compliant with FGDC standards 
or have not been published through the central clearinghouse. 
OMB's oversight methods have not identified or eliminated 
specific instances of duplication. This is largely resulted 
from OMB not collecting consistent key investment information 
from all agencies. As a result, agencies continue to 
independently acquire and maintain potentially duplicative sets 
of data and systems. This costly practice is likely to continue 
unless coordination is significantly improved.
    In our report, we are making several recommendations to 
strength coordination. Specifically, we are recommending that 
the Director of OMB and the Secretary of the Interior direct 
the development of a national geospatial data strategy that 
includes goals, strategy, risk factors, and performance 
measures. We are also recommending that the Director of OMB 
encourage agency compliance with A-16 by developing criteria 
for assessing the extent of interagency coordination proposals 
for geospatial investments and to strength OMB's oversight of 
investments in geospatial data and systems.
    OMB Interior officials agreed with these recommendations. 
However, until these issues are fully addressed, the vision of 
a fully coordinated geospatial data infrastructure may remain 
out of reach.
    That concludes my statement. I would be happy to answer 
questions at the appropriate time.
    [The prepared statement of Ms. Koontz follows:]

    [GRAPHIC] [TIFF OMITTED] T7132.010
    
    [GRAPHIC] [TIFF OMITTED] T7132.011
    
    [GRAPHIC] [TIFF OMITTED] T7132.012
    
    [GRAPHIC] [TIFF OMITTED] T7132.013
    
    [GRAPHIC] [TIFF OMITTED] T7132.014
    
    [GRAPHIC] [TIFF OMITTED] T7132.015
    
    [GRAPHIC] [TIFF OMITTED] T7132.016
    
    [GRAPHIC] [TIFF OMITTED] T7132.017
    
    [GRAPHIC] [TIFF OMITTED] T7132.018
    
    [GRAPHIC] [TIFF OMITTED] T7132.019
    
    [GRAPHIC] [TIFF OMITTED] T7132.020
    
    [GRAPHIC] [TIFF OMITTED] T7132.021
    
    [GRAPHIC] [TIFF OMITTED] T7132.022
    
    [GRAPHIC] [TIFF OMITTED] T7132.023
    
    [GRAPHIC] [TIFF OMITTED] T7132.024
    
    [GRAPHIC] [TIFF OMITTED] T7132.025
    
    [GRAPHIC] [TIFF OMITTED] T7132.026
    
    [GRAPHIC] [TIFF OMITTED] T7132.027
    
    [GRAPHIC] [TIFF OMITTED] T7132.028
    
    [GRAPHIC] [TIFF OMITTED] T7132.029
    
    [GRAPHIC] [TIFF OMITTED] T7132.030
    
    Mr. Putnam. Thank you very much.
    Our next witness is Scott Cameron. Mr. Cameron is Deputy 
Assistant Secretary for Performance and Management at the 
Department of Interior. Given Interior's extensive use of 
mapping and intrinsic staff talent, Mr. Cameron took on the 
important role as chairman of the President's Geospatial One-
Stop E-Government Initiative. Mr. Cameron previously served in 
California's Washington, DC office advising Governor Wilson on 
Federal environmental energy and natural resources issues. He 
also served under President George H.W. Bush as Deputy Chief of 
Interior Branch issues at OMB.
    Welcome to the subcommittee. You are recognized for 5 
minutes.
    Mr. Cameron. Thank you very much, Mr. Chairman. I am a 
Pisces. I have two cats and a barely in control second grader. 
And I appreciate the opportunity to testify before you today, 
Mr. Chairman, and all the members of the subcommittee who may 
join us to talk about Geospatial One-Stop.
    Geospatial One-Stop has made substantial progress during 
the year since my last appearance before this subcommittee, 
although we believe much work remains to be done. Geospatial 
One-Stop continues to work with partners at the Federal, State, 
tribal, and local level to assist them in leveraging individual 
resources so that they are, together, more efficient, more 
cost-effective, and better serve all of our citizens. When 
managed properly, geospatial data can be acquired once and used 
many times. The portal has already demonstrated this principle. 
As Ms. Evans described earlier, it was used for the California 
wildfire responses, for some of the preparation for Hurricane 
Isabel, and so on.
    We are hopeful that as the use of Geospatial One-Stop's 
portal continues to grow, we can stimulate innovative 
partnerships, such as the National Hydrography Dataset, which 
involves 7 Federal agencies and consortia, 27 States, 2 
regional organizations, 5 universities.
    Another creative example includes an MOU that was just 
signed with the State of Utah for cooperative creation and 
sharing of digital spatial information. Eleven Federal 
agencies, three State agencies, and Geospatial One-Stop are 
signatories to that.
    The project is focused on four specific tasks: a Web-based 
portal; a collaborative process to develop data exchange 
standards promoting greater consistency among data sets; an 
easy-to-access inventory, a card catalog, if you will, of 
currently available data; and what we call a marketplace of 
planned data investments that will allow State, tribal, and 
local governments to combine resources with Federal agencies on 
future data acquisition.
    The project's Intergovernmental Board of Directors, 
composed of State, local, tribal, and Federal representatives, 
serves as one of the strengths of the project. The Board, whose 
meetings are open to the public, guarantees dialog among these 
various levels of government that have significant investments 
or interest in geospatial information. In light of the fact 
that State and local governments, quite frankly, own more data, 
buy more data, have better quality data than the Feds typically 
do, 7 of the 11 votes on this Intergovernmental Board, in fact, 
we have given to non-Federal members.
    To facilitate the sharing of information, Geospatial One-
Stop led a collaborative effort over 2 years that included a 
broad group of people from all sectors of the geospatial 
community--local governments, State agencies, private sector, 
academics--in the development of data exchange standards. All 
13 draft standards for key data layers have now been submitted 
to a committee of the American National Standards Institute 
[ANSI] for their adoption as national standards. A notice 
announcing the formal public review on these standards, in 
fact, shows up in today's Federal Register.
    The seven major geospatial data layers associated with 
these standards are geodetic control, elevation, ortho imagery, 
hydrography, transportation--which actually has several sub-
themes--cadastral, and government unit boundaries. We are 
hopeful that the ANSI process, which is run by volunteers from 
various levels of society, will lead to formal endorsement of 
these standards in 2005.
    Since we launched geodata.gov, the portal for Geospatial 
One-Stop, on June 30th of last year, we have seen tremendous 
progress in the participation of State and local governments. 
The portal currently includes 1,100 live mapping services; over 
11,000 records or data sets owned by Federal, State, local, 
tribal governments or private companies; and 155 postings of 
planned data acquisition in our marketplace. Thousands more 
data sets will be added, we are certain, over the next several 
months. The portal receives about 4,000 home page hits each day 
and almost 7,000 unique visitors each month. We are also moving 
forward with the procurement for version 2.0 of the portal, if 
you will. There will be a request for comments going out in 
mid-July, a request for proposal in August, and we hope to have 
a new portal emerging from a highly competitive procurement 
process on line in late fall or in the early winter of next 
year.
    After my last appearance before this subcommittee, we took 
your advice and listened to our private sector partners. 
Subsequent to the hearing, when our board got together for its 
next regularly scheduled meeting, the board voted to include 
access to private sector data through the portal. So since the 
late summer of 2003 we have been encouraging private sector 
data holders to in fact register their data, fill out the 
metadata form and let the world know about their private data 
holdings as well as governmental data holdings.
    Mr. Chairman, in closing, I really appreciate the 
opportunity to testify before you today. I appreciate your and 
Mr. Clay's and the rest of the subcommittee's continuing 
interest in this project. Frankly, it helps us a great deal to 
be successful knowing that you are up here and you care.
    I would be pleased to answer any questions you might have.
    [The prepared statement of Mr. Cameron follows:]

    [GRAPHIC] [TIFF OMITTED] T7132.031
    
    [GRAPHIC] [TIFF OMITTED] T7132.032
    
    [GRAPHIC] [TIFF OMITTED] T7132.033
    
    [GRAPHIC] [TIFF OMITTED] T7132.034
    
    [GRAPHIC] [TIFF OMITTED] T7132.035
    
    [GRAPHIC] [TIFF OMITTED] T7132.036
    
    [GRAPHIC] [TIFF OMITTED] T7132.037
    
    [GRAPHIC] [TIFF OMITTED] T7132.038
    
    [GRAPHIC] [TIFF OMITTED] T7132.039
    
    [GRAPHIC] [TIFF OMITTED] T7132.040
    
    Mr. Putnam. Thank you very much, Mr. Cameron.
    Our final witness for this panel is William Allder, Jr. Mr. 
Allder is Director of the Strategic Transformation Office at 
the National Geospatial-Intelligence Agency in Bethesda, MD. He 
is responsible for NGA's strategic planning, including 
enterprise architecture and engineering, program analysis, 
evaluation and integration to align the agency's investments 
with the director's transformational objectives in response to 
emerging geospatial intelligence challenges. Prior to his 
current position, Mr. Allder served for 4\1/2\ years as NGA's 
Director of Acquisition, leading the development of the 
national system for geospatial intelligence to national and 
defense customers.
    Welcome to the subcommittee. You are recognized.
    Mr. Allder. Mr. Chairman, thank you very much for the 
opportunity to appear here on behalf of the National 
Geospatial-Intelligence Agency [NGA]. I have a set of view 
graphs that I will step through here briefly, and I want to 
tailor my remarks to what is there.
    The NGA is both a combat support agency in the Department 
of Defense and a member of the U.S. intelligence community, and 
that really defines our primary missions and our primary 
customer sets. The vast majority of the services that we 
provide and the information that we collect and provide for our 
customers is outside of the United States. So we are really 
here in a support role, and I want to talk to what that role 
is, but I want to assure the committee that we and the 
Department of Defense strongly support the objectives of what 
you are addressing here.
    I want to talk through how we are supporting the E-
Government initiative of Geospatial One-Stop, what we are doing 
philosophically in the related standards initiatives, and then 
leave a few words in response to the question that the 
committee posed about whether we are on the right path.
    If you go to chart 3, that shows a top level context, just 
to show that of the 25 E-Gov initiatives, the Department of 
Defense participates in 17. Of those, highlighted in red is the 
Geospatial One-Stop Initiative, where NGA is the lead agency 
for the Department, working back with DOI as the managing 
partner to support the objectives of that initiative.
    On the next chart we indicate that we have an MOA between 
DOD, NGA, and the managing partner that formalizes the roles 
and responsibilities and what we are doing in support of 
Geospatial One-Stop, and those are listed here. First, we 
intend to provide access, discovery capability for all of the 
domestic releasable information that we hold through Geospatial 
One-Stop. Some of the information is there today on 
geodata.gov.; more will be coming, and I will show you what 
that is in just a minute.
    Second, we participate in the establishment of the content 
standards for the foundation data themes. We participated 
directly in four of the working groups. We are hoping to move 
that definition through the standardization process in American 
National Standards Institute [ANSI] and hopefully onto 
International Standards Organization [ISO]. We also have an 
implementation strategy that says while we will always have 
unique requirements inside the defense and intelligence 
community for how we attribute and even look at common features 
like roads, we will be common and consistent at a core level 
with the foundation specifications that are laid out here.
    Third, we are working with DOI on the acquisition of the 
Geospatial One-Stop portal; we provide people and some direct 
funding to that process. And then, fourth, we are standing up 
our own Web presence to help facilitate interaction with GOS, 
which I will show you on chart 5, a very notional cartoon for 
how that will work.
    If you look at the upper right, you will see an NGA 
Geospatial One-Stop portal that we are putting in place to 
provide support to the metadata harvesting activity down in the 
Geospatial One-Stop itself. Therefore, whatever customer I am 
sitting in that cloud on the left, I can come into Geospatial 
One-Stop and just like I can find out about information held by 
the U.S. Geological Survey, we can find out by looking at 
metadata expressed consistent with the FGDC standards what we 
hold inside of NGA.
    Similarly, it is important to note on the left that we are 
representing our analysts, our employees in the Department of 
Defense as being customers of Geospatial One-Stop. We want to 
use the information that is there. We do not want to replicate 
or copy it over into our environment; we intend to access 
through the Geospatial One-Stop portal.
    We are in a security certification accreditation of our 
server today. We are also going through a releasibility review 
of the data that we will be making available, and we expect to 
have this capability operational in the fall of 2004.
    On the next chart there is a top level depiction of the 
information content that we expect to make available initially 
from very small-scale terrain information down to a very 
detailed representation of the terrain that was created as a 
result of the Shuttle radar topography mission flown in the 
year 2000. We expect to make all of that information available 
through the geospatial one stop.
    Transitioning briefly to the standards development area, 
standards, of course, are a major enabler of everything 
Geospatial One-Stop is trying to do. I want to point out that 
my boss, Lieutenant General Jim Clapper, wears two hats in our 
community; he is the Director of NGA, but he is also what we in 
the DOD community call the functional manager for our 
discipline of geospatial intelligence. That says that across 
the elements of the IC and the DOD, General Clapper sets the 
vision, he sets the future direction, he orchestrates 
investments without controlling them.
    A key part of that is prescribing and mandating the set of 
standards that will be used for geospatial applications. We 
have in place a national center for geospatial intelligence 
standards to help us step up to that role. We work closely with 
the FGDC, and I will not belabor it, but we, as the FGDC does, 
work on an open consensus-based process leveraging industry 
standards versus building our own.
    Last, sir, in terms of take-away, you asked the question 
here whether we are on the right path or not, and I would like 
to give you my personal perspective from having worked 30+ 
years in six Federal agencies, always associated with 
geospatial information. From a time in the early 1980's when I 
served on some working groups in the American Congress on 
Surveying and Mapping, working on digital cardiographic 
standards, to today, we have made significant improvements. 
And, yes, we can do more; yes, there is a lot more to do, but 
particularly in the last several years there have been very 
dramatic strides forward. Technology, of course, is a key 
enabler of that, and I will not belabor that, but it lets us 
step up to that process.
    What I would cite as perhaps more important is the focusing 
effect of the disasters of September 11. We found in our 
community that during a time of crisis, it is very easy to 
break through the ossifying bureaucracies we sometimes deal 
with and get right to the heart of what do I need to do 
together to better support the customers. I think that 
atmosphere and that climate permeates the Government today. I 
think it will for some time, and I think that has helped us in 
addition to the direction that we have gotten to move forward 
in these areas to support what we need to do to share and 
collaborate.
    Second, I think we have a much better understanding today 
of what drives the technology market in today's environment and 
where the Government should and should not become intrusive in 
specifying standards. I think you have heard a lot of 
discussion about consensus-based industry processes. We 
strongly endorse that as what we must do. If standards are the 
area where industry has agreed not to compete, we need to let 
industry come to what those areas are on their own. We can 
encourage them, we can set the policies, we can provide subject 
matter expertise, but we cannot direct that to happen; we have 
to let it evolve as it goes forward. I think that has been 
extremely successful today.
    And, last, I think we have found a good way to balance long 
and short-term investments that says simply I believe we need 
to resist the temptation to try to push things faster in the 
areas of information technology standards by becoming overly 
prescriptive on industry. We need to let the consensus process 
play out so that we can follow it. That genie is out of the 
bottle, and it is not going back in. There was a recent June 
7th issue of Newsweek that paraphrased a CEO of one of the 
leading GIS corporations as saying that once geospatial 
information became pervasively available on the Internet and 
could be rapidly integrated into applications, the business 
model of a closed proprietary system to sell, to make profit 
was gone, was dead; and he and others needed to step up to the 
open consensus standards process. I think that is something, 
sir, that I would commend. We need to be willing to follow; let 
the free market drive where this goes and find the right places 
for Government intervention.
    Thank you very much, and I would be glad to take your 
questions as well.
    [The prepared statement of Mr. Allder follows:]

    [GRAPHIC] [TIFF OMITTED] T7132.041
    
    [GRAPHIC] [TIFF OMITTED] T7132.042
    
    [GRAPHIC] [TIFF OMITTED] T7132.043
    
    [GRAPHIC] [TIFF OMITTED] T7132.044
    
    [GRAPHIC] [TIFF OMITTED] T7132.045
    
    [GRAPHIC] [TIFF OMITTED] T7132.046
    
    [GRAPHIC] [TIFF OMITTED] T7132.047
    
    [GRAPHIC] [TIFF OMITTED] T7132.048
    
    [GRAPHIC] [TIFF OMITTED] T7132.049
    
    [GRAPHIC] [TIFF OMITTED] T7132.050
    
    [GRAPHIC] [TIFF OMITTED] T7132.051
    
    [GRAPHIC] [TIFF OMITTED] T7132.052
    
    Mr. Putnam. Thank you, sir.
    We will begin with the first round of questions, beginning 
with Ms. Evans.
    Ms. Evans, last year during testimony before this 
subcommittee your predecessor, Mark Forman, estimated that the 
Federal Government spends somewhere in the neighborhood of $4 
billion per year on geospatial products and services, and went 
on to say that he estimated as much as half of that amount was 
wasted. I am aware that a recent report estimates the annual 
cost to be closer to $5 billion, with a high percentage of 
waste.
    Empirically, what do we know about the Federal Government's 
annual expenditures on GIS, and what percentage of that do you 
believe is duplicative or redundant?
    Ms. Evans. I would say right now that we still do not have 
a good solid number that I can sit here and tell you, yes, sir, 
it is $4 billion, yes, sir, it is $5 billion going forward. 
This is an area where we are continuing our efforts, and as I 
included in my testimony, that we were going to give further 
guidance out to the agencies so that we could give a better 
definitive answer as to what is the actual expenditures in this 
area, how much of it is duplicative, and how much we intend to 
eliminate. So we are continuing to work in this area. We need 
to continue to give better guidance to the agencies, as was 
mentioned by GAO, so that I can provide a better answer. But 
right now I would say that we are still continuing to work on 
this.
    Mr. Putnam. Do you have a ballpark figure on expenditures?
    Ms. Evans. If we look specifically at the expenditures that 
have been reported to date to us, the numbers are aligned with 
the geospatial data collections that are associated with the A-
16 layers. Those numbers are much less, really less than the $5 
billion number that you have given. So if we add in the other 
efforts that are going on, we can come closer to the $5 billion 
amount, but without all the level of specificity of what is 
involved in each of these investments, I can't answer the 
second part of the question, as to whether it is duplicative 
and redundant and it needs to be eliminated.
    So we have numbers, but I can't definitively say, as my 
predecessor did, that 50 percent of those are wasted.
    Mr. Putnam. Ms. Koontz, let me begin with this. Who in the 
Federal Government has the responsibility and accountability 
for coordinating all geospatial collection and data access 
activities across the Government?
    Ms. Koontz. There are actually a number of entities that 
have some responsibility for coordination. That would include 
the agencies themselves. Agencies are charged under A-16 to 
coordinate their investments of geospatial assets. The FGDC is 
charged with the responsibility of promoting coordination both 
within the Federal Government and with State and local 
governments. And then OMB is charged with overseeing geospatial 
investments as part of their overall responsibility to oversee 
IT investments.
    Mr. Putnam. So there is really not any one quarterback for 
the effort.
    Ms. Koontz. There is no single entity that is totally 
responsible.
    Mr. Putnam. Mr. Cameron, where do you fit into that?
    Mr. Cameron. Geospatial One-Stop's role in this context is 
to try to help OMB uncover where Federal geospatial data 
spending is going on, but I would suggest, perhaps more 
significantly, making available to Federal agencies with the 
voluntary cooperation of State and local governments, the data 
sets that State and locals own and maintain. Personally, I 
think if we had better access to the high quality and 
relatively recent data that State and local governments are 
producing, are acquiring, that would allow us to much more 
intelligently, much more efficiently spend the Federal dollar, 
whether that is $1 billion or $10 billion.
    Mr. Putnam. Help me understand all the different pieces of 
this puzzle. How are the Federal Geographic Data Committee's 
efforts to develop a national spatial data clearinghouse 
different from Geospatial One-Stop's goal of serving as the 
primary portal for all GIS information?
    Mr. Cameron. OK. Back in the 1990's, shortly after 
President Clinton signed the National Spatial Data 
Infrastructure Executive order, the FGDC started assembling 
essentially a card catalog of metadata on Federal data 
holdings. What we have done through Geospatial One-Stop is 
taken that Federal data card catalog clearinghouse, I think 
made it easier to work with, made it more accessible, and 
introduced data holdings that are owned by State and local 
governments and the private sector. So you have a much bigger 
clearinghouse and a much more accessible clearinghouse than you 
did in the 1990's.
    Mr. Putnam. Where does the National Map fit into all of 
that?
    Mr. Cameron. The National Map is a project that is 
spearheaded by the U.S. Geological Survey, and, actually, over 
the last year we have had much tighter integration between the 
National Map and the Geospatial One-Stop and the Federal 
Geographic Data Committee. The National Map is about pulling 
together data sets owned by various governmental sectors and 
making them available centrally. The link with the Geospatial 
One-Stop is the National Map would be accessed, if you will, 
through the Geospatial One-Stop portal.
    So USGS, through the National Map, is in the data 
acquisition business, it is going out there and forging 
partnerships with State and local governments to go acquire 
data this year or the year after this; whereas, Geospatial One-
Stop is a mechanism for sharing that information with the world 
once it is collected. And the Federal Geographic Data 
Committee's role is to help corral the Federal agencies' 
participation in the National Map.
    Mr. Putnam. What role does the private sector play in the 
collection and preparation and application of geospatial 
information for the Federal Government?
    Mr. Cameron. Realistically, right now, most--well, I am not 
sure of most, because I don't have the specific knowledge, but 
a large amount of the money that is being spent by Federal 
agencies on geospatial data acquisition is in fact being paid 
to private sector contractors to acquire the data. Perhaps with 
the exception of the military or the defense community, I think 
relatively little time do you have Federal employees actually 
acquiring data. So the private sector has a significant role in 
physically collecting the data on behalf of its own customers 
or various levels of Government for whom they may be 
contractors.
    Mr. Putnam. Mr. Allder, would you address that as well, 
please?
    Mr. Allder. Yes, sir. If I go back a decade, we had a 
significant in-house work force that was doing geospatial data 
collection and production. That has changed significantly over 
the last decade. We now rely very heavily on the private sector 
and the capability that has grown there to produce foundational 
geospatial information for us that we then use to populate our 
data bases and support our customer sets. We still have a work 
force internally doing some of that work, but it is down to 
less than 20 percent of what it was 10 years ago as the work 
has moved to the private sector. So we are heavily relying on 
partnerships and the very robust capability that has grown 
there over the last decade.
    Mr. Putnam. Does today's current geospatial information 
sharing capability provide the opportunity for military and 
intelligence agencies to receive or provide access to data 
where there might be shared uses in the unclassified space?
    Mr. Allder. I would say opportunity, yes, but I would not 
tell you there is a capability for exhaustively doing that to 
the point where we understand we are minimizing redundancy. We 
have historically had agreements from NGA that would be case-
by-case with various civil agencies for exchange of 
information. An example would be with the Federal 
Communications Commission, where we exchange information on 
vertical obstructions that from our standpoint are important to 
safety of navigation, from theirs are important to 
understanding the state of the transmissions networks in the 
United States. We have case-by-case agreements like that. We 
also will get involved with either civil agencies or State and 
local governments through civilian agency in the case of 
something like a natural disaster through FEMA, and we, in 
those cases, would have specific goals and objectives for 
sharing information that we are able to do that. But we do not 
have a routine way to go in and make sure that information does 
not already exist.
    Before we go out to acquire any information for a domestic 
mission, we do a search to try to find if there is something 
useful already in the Government, but that, again, is not 
exhaustive. That is exactly the kind of problem, though, that 
Geospatial One-Stop is intended to address. We see, as 
additional information gets populated there, there will be a 
lot more opportunity for us all to be more efficient in the use 
of resources here.
    Mr. Putnam. Thank you very much. My time has expired. I 
will recognize the ranking member for 5 minutes.
    Mr. Clay. Thank you, Mr. Chairman.
    Let us start with Ms. Evans. As I mentioned in my 
statement, my hometown of St. Louis, as well as Missouri, have 
utilized GIS for a wide variety of services and purposes. Can 
you outline for us what OMB is doing to improve the services 
provided by Federal Government geospatial programs for State 
and local agencies?
    Ms. Evans. I can highlight it at a high level, but I would 
also ask if Interior could also talk specifically about the 
ongoing work that is happening under Geospatial One-Stop.
    We are, OMB, through its oversight and management through 
the Circular A-16, trying to ensure that the partnerships are 
there, that they are established so that we can share the 
information. And as my colleague said from Interior, many times 
the information that is collected at the State and local level 
is much better than the information that is available at the 
Federal level. So through the Geospatial One-Stop, the 
President's initiative, we are trying to maximize the work that 
has already been done in this area.
    I think that Scott would be glad to talk specifically about 
what is happening in the Federal Government efforts to ensure 
that partnership and that linkage at the State and local level.
    Mr. Clay. OK, thank you, Ms. Evans. I will give Scott a 
chance later. One more issue. You know the GAO report before us 
today states that OMB's methods for oversight have failed to 
eliminate duplication in geospatial investments across 
agencies. I know that the chairman asked a question, but let me 
ask you to give us specific examples of building partnerships. 
You mentioned in your statement that there was an effort to 
build partnerships. And tell me also how you have worked toward 
streamlining the budgeting process in this initiative.
    Ms. Evans. Specifically in fiscal year 2005, we 
specifically directed agencies that they needed to make this 
information available to Geospatial One-Stop, the President's 
initiative, of where they were going with their geospatial 
investments and that they needed to complete and send this 
inventory in to Geospatial One-Stop. We continue to work with 
the agencies to get that information. It is clear through 
Circular A-16 that there are oversight and policy issues that 
OMB needs to do in order to go forward to ensure the effective 
management of this.
    I believe as we go forward and with the release of the 
Federal Enterprise Architecture's model of data, the data 
reference model has not been released yet, and it is intended 
to be released; that when you see that, we also talked about 
giving additional guidance out to the agencies. What we intend 
to do at that point, when that is released, is specifically 
talk about the data and how it relates to the circular so that 
the agencies will know how to report those investments in to us 
so that we will be able to get greater visibility into there 
and be able to promote the partnership between the agencies as 
well as through the State and local governments.
    We haven't released that model yet; we are targeting for 
the end of next month to release that model because there has 
been a lot of discussion about how that model should read, and 
we want to make sure that when the model is released, that no 
matter who you are, you will be able to read it and understand 
exactly what we are talking about as far as the data that we 
are collecting and how we are going forward.
    Mr. Clay. Thank you for your response.
    Ms. Koontz, according to GAO's report, the National States 
Geographic Information Council estimates the cost of building a 
complete NSDI at approximately $6.6 billion without factoring 
in the likelihood of redundancy and duplication among 
participants. Under the current organizational structure, do 
you believe such investments would be prudent? And what 
coordination steps do you recommend for this project among 
Federal, State, and local agencies to ensure that redundancy is 
minimal?
    Ms. Koontz. To your first question, I think both the 
release of the data reference model that is part of the FEA, as 
well as OMB's proposal to have agencies report investments 
through Geospatial One-Stop are both promising in terms of 
providing the kind of complete and consistent and detailed 
information that OMB really needs in order to identify and 
reduce redundancies.
    I think, to your second question, in our report we outline 
a number of recommendations that we are making to OMB and to 
Interior that we think will help reduce redundancies. Those 
include updating the national strategy for developing the NSDI, 
the National Spatial Data Infrastructure. We have also 
recommended that OMB develop criteria for assessing 
coordination when they are looking at particular investments, 
and we have also called for various measures to increase and 
improve OMB oversight.
    Mr. Clay. Thank you for that response.
    Mr. Cameron, when will the Geospatial One-Stop project be 
completed? And at that time will all of its objectives be met, 
including developing an inventory of Federal geospatial data 
holdings and encouraging greater coordination among Federal, 
State, and local agencies?
    Mr. Cameron. Good question, Mr. Clay. I guess I could 
answer it on several different levels. There are obviously a 
couple of tasks that at some point will have a definite ending. 
The standards, for instance, will be completed in 2005; they 
will come out of the ANSI process. We will, in fact, have a 
second portal, again, in early 2005, late calendar 2004. But I 
think in the long run I would like to see the activities of 
Geospatial One-Stop move out of a project mode and become a 
normal routine way that the Federal Government does business, 
moving standards quickly; interacting much more heavily and 
much more on an equal-to-equal basis with State and local 
governments than we ever have before; more thoroughly and more 
reliably capturing our data investments.
    So I think sometime, maybe 1\1/2\ or 2 years out, there 
ought to be an evolution, if you will, of where Geospatial One-
Stop stops being a project and becomes mainstreamed into just a 
normal routine way for the Federal Government to interact with 
its partners and manage itself internally.
    Mr. Clay. Thank you for that response.
    Mr. Allder, can you cite for us any collaboration your 
agency is undertaking with other Government agencies, and are 
these efforts improving the quality of data and information 
available within geospatial programs?
    Mr. Allder. Yes. I mentioned several earlier, and I can hit 
a few more. I mentioned the Federal Communications Commission. 
We collaborated with the U.S. Geological Survey on the 
production of information over a data base for the 133 urban 
areas in support of Homeland Security. We have a team of our 
analysts who are actually resident inside of the Homeland 
Security Department who are working collaboratively with them. 
So, yes, sir, we have many such activities ongoing. Again, 
producing domestic information is not the major focus of our 
mission today; we do that on an opportunity basis, on an 
invitation basis. But, yes, sir, there are many examples. I 
think they are growing and they are certainly improving our 
service to our customer set.
    Mr. Clay. Thank you.
    I thank the panel for their responses.
    Mr. Putnam. Thank you, Mr. Clay.
    Ms. Koontz, do you have any thoughts on the merit of 
establishing a geospatial information administrator within OMB 
or perhaps somewhere else, or even a geospatial information 
officer type of position within agencies? Just share your 
thoughts on something along those lines.
    Ms. Koontz. I think either of those positions certainly 
have merit to consider. Without knowing further details, it 
does appear, though that if you are able to affix 
accountability with a single entity, I think experience has 
shown us that things tend to get done.
    Mr. Putnam. Ms. Evans, what are your thoughts?
    Ms. Evans. I have thought about this question a lot, and I 
would say that I don't agree necessarily that there is a need 
for a geospatial information administrator or officer within 
the Office of Management and Budget. I would tell you that 
recently this position, the Vice Chair position of the FGDC, 
has been delegated to me from the Deputy Administrator for 
Management because it is about information management. We are 
looking, though, internally within OMB and the implementation 
and the oversight of A-16 is it now are we at the point do we 
heighten this to the point where we ask the agencies, similar 
to the way that we did when FISMA was passed, who is the 
central point of contact within your agency to deal with 
geospatial information? I also think that this person should be 
located within the CIO organization, because the Chief 
Information Officer is about the strategic management of 
information, regardless of what type, whether it geospatial, 
paper, electronic. And so we are really looking at what is the 
role and responsibility of this person and how we would like 
for them to go forward to get to the issue of accountability 
and be able to help the agency with its investments and how to 
manage that type of information strategically.
    So I don't think that we need one within OMB because of the 
accountability and how we deal with things and how we work with 
the budget side of the House, but I do think that it is worth 
examining how we move forward with the agencies. Two agencies 
to date, EPA and DHS, have identified a geospatial information 
officer within their organizations. Both of those agencies do 
have that position reporting to the Chief Information Officer.
    Mr. Putnam. As we talk through these GIS issues, including 
One-Stop, which is 1 of the 24 E-Gov initiatives, it leads me 
to ask, in reference to last week's action on Interior 
appropriations, the bill included language that would prohibit 
funding on four E-Gov initiatives. What is the impact of that 
language, Ms. Evans?
    Ms. Evans. The administration has issued its statement on 
this particular issue and the impact of that, and we do, in the 
statement, generally we said that it would have great impact on 
the ability of the Government to be able to move forward as an 
enterprise to facilitate collaboration and coordination of our 
resources and to be able to come up with a common solution so 
that we can have one solution for the Government as a whole as 
we are moving forward and eliminating redundancies and becoming 
more efficient. And so the administration has issued its 
statement on the effect of that particular language in the 
appropriations bill.
    Mr. Putnam. Ms. Koontz, do you have an opinion on the 
effect that this would have on the mandated requirements set 
forth in the law, the prohibition of funding? What effect will 
that have on the agencies' ability to carry out their 
legislative mandate?
    Ms. Koontz. I am sorry, I haven't studied the language in 
the appropriations bill. I don't think I can comment on that.
    Mr. Putnam. Does anyone want to take a stab at it? Does 
Interior want to talk about what is in the Interior 
appropriations bill?
    Mr. Cameron. Interior very wisely, on matters of 
appropriations, defers to the Office of Management and Budget, 
so I agree with Karen.
    Mr. Putnam. Well put. I think it sends a very disturbing 
message to our agencies and is something that we intend to work 
through.
    We have votes currently planned for approximately 3, so 
what I would like to do, if there are no other questions, I 
would like to go ahead and seat the second panel and try to get 
through the opening testimony on that before we are called 
away. So I want to thank our first panel for your insight, and 
the subcommittee will recess until such time as the second 
panel is seated, hopefully very shortly.
    [Recess.]
    Mr. Putnam. The subcommittee will reconvene. I would ask 
the second panel of witnesses to please rise for the 
administration of the oath.
    [Witnesses sworn.]
    Mr. Putnam. Note for the record that all of the witnesses 
responded in the affirmative.
    Our first witness is Zsolt Nagy. Did I say that correctly?
    Mr. Nagy. That is correct.
    Mr. Putnam. Welcome to the subcommittee. Mr. Nagy is 
president-elect of the National States Geographic Information 
Council. NSGIC is perhaps the primary intergovernmental 
organization seeking to develop interoperability and data 
standards between local, State, and Federal levels of 
government. He is also the manager of geographic information 
coordination program at the North Carolina Center for 
Geographic Information and Analysis, where he has done work on 
national, State, regional and local GIS initiatives, including 
efforts to develop the National Spatial Data Infrastructure.
    Welcome to the subcommittee. You are recognized for 5 
minutes. I would ask all of you to please help us stick to 
that. We will have five votes on the floor shortly. So you are 
recognized.

  STATEMENTS OF ZSOLT NAGY, PRESIDENT-ELECT, NATIONAL STATES 
GEOGRAPHIC INFORMATION COUNCIL [NSGIC], GEOGRAPHIC INFORMATION 
   COORDINATOR, NORTH CAROLINA DEPARTMENT OF ENVIRONMENT AND 
  NATURAL RESOURCES; FREDERIC W. CORLE II, PRESIDENT, SPATIAL 
    TECHNOLOGIES INDUSTRY ASSOCIATION; JOHN M. PALATIELLO, 
    EXECUTIVE DIRECTOR, MANAGEMENT ASSOCIATION FOR PRIVATE 
PHOTOGRAMMETRIC SURVEYORS; DAVID SCHELL, PRESIDENT & CEO OF THE 
OPEN GIS CONSORTIUM, EXECUTIVE DIRECTOR, OPEN GIS PROJECT; AND 
DR. DAVID J. COWEN, CHAIR, MAPPING SCIENCE COMMITTEE, NATIONAL 
RESEARCH COUNCIL, CHAIR, DEPARTMENT OF GEOGRAPHY, UNIVERSITY OF 
                         SOUTH CAROLINA

    Mr. Nagy. Very good. Chairman Putnam and honorable members 
of the subcommittee, thank you for inviting me as president-
elect of the National States Geographic Information Council 
[NSGIC], to participate in this important hearing on 
``Geospatial Information: Are We Headed in the Right Direction, 
Or Are We Lost?''
    Mr. Chairman, we make maps for a living, so how can we 
possibly be lost? Let me continue.
    NSGIC is a nonprofit organization that promotes effective 
government through the wise use and sharing of geospatial 
information. We provide a voice for the States to ensure that 
the State and local efforts form the foundation of a 
sustainable national spatial data infrastructure.
    Core NSGIC members are senior State government managers and 
policymakers involved in daily coordination and application of 
geospatial technologies. Our members are nonpartisan in their 
passion for good government.
    NSGIC has concerns about geospatial coordination in our 
country, especially as it relates to Federal efforts in data 
collection. It really should be viewed as a national effort. 
Rapid advances in technology have reduced the cost of 
geospatial systems, which are now significantly used in State 
and local governments. To maximize the effectiveness of this 
technology, we need to be smarter about how we collect and 
maintain the Nation's geospatial data.
    Federal Government must recognize that a new cross-cutting 
collaborative role is required to coordinate and leverage 
geospatial data investments. To put it simply, we cannot afford 
to have duplicative geospatial initiatives horizontally among 
Federal agencies, or vertically between local, State, regional, 
and Federal Governments.
    NSGIC members perform much of their work through statewide 
coordinating bodies. The most basic principle of a coordinating 
body is ``build it once, use it many times.'' There is a 
potential that the cost for broad-use data will be higher, but 
that one-time expense is still much less costly than the 
alternative of redundant and incompatible efforts by multiple 
levels of government. Accordingly, geospatial data must be 
built to address the requirements in local government 
applications. With prudent adherence to basic standards and 
best practices, local government data can be rolled up to meet 
the needs of agencies at all levels. There are many advantages 
to this approach, since locally used data is most likely to be 
maintained, accurate and complete.
    Of course, it can be daunting for Federal agencies to 
contemplate assembling a nationwide data base from thousands of 
local government systems, and we also know that many local 
governments do not have the data. So this is where the 
statewide coordinating bodies come into place. They bring all 
of the relevant stakeholders to the table to coordinate 
development in support of geospatial data that meet multiple 
needs.
    We know that statewide coordinating bodies work. What we 
did not know until recently was how they measured up on a 
national basis. NSGIC membership developed a set of nine 
criteria that define a model State program. They include having 
a full-time statewide coordinator that is paid; a clearly 
defined authority for statewide coordination; that there is a 
relationship with that group to the State CIO; that there is a 
political or executive champion; that there is an NSDI 
clearinghouse, a state-based clearinghouse; that there is 
significant input from local government, academia, and the 
private sector; there is sustainable funding; and they are able 
to enter into contracts and receive and expend funds; and that 
the Federal Government works through the statewide coordinating 
body.
    NSGIC conducted a survey among the 50 States to ask how 
many of these nine criteria they met. Thirty-two States 
reported meeting six or more of the criteria, including nine 
States that meet all. Eighteen States reported meeting five or 
fewer of the criteria. What this tells us is that most States 
are well positioned to coordinate with Federal agencies and 
that there are opportunities to strengthen the remaining 
statewide coordinating bodies.
    In summary, we respectfully ask the subcommittee to 
consider the following recommendations: Coordination of Federal 
agency geospatial activities need to be done in the context of 
national priorities, not just Federal priorities. One key 
element of this is to work through the statewide coordinating 
bodies.
    Two, partnering with State and local governments is 
absolutely essential in meeting the country's collective 
geospatial data needs. In States where the coordination 
infrastructure is weak, Federal programs can provide a powerful 
incentive to strengthen them.
    Third, funding streams for Federal geospatial programs must 
be adequate and sustained to support development and 
maintenance of data that meet local requirements.
    And, fourth, better mechanisms need to be in place for 
funding to leverage the needs of Federal programs for the joint 
benefit of State and local government.
    I will close by saying there are many agencies involved in 
geospatial information technologies, and many are heading in 
different directions. We are not lost, but there are certainly 
opportunities to streamline, reduce costs, and yet meet many 
important national and local government criteria. Borrowing 
from the well known phrase that all politics are local, NSGIC 
submits to you that all data are local.
    Mr. Chairman and members of the subcommittee, thank you for 
the opportunity to share these views with you today.
    [The prepared statement of Mr. Nagy follows:]

    [GRAPHIC] [TIFF OMITTED] T7132.053
    
    [GRAPHIC] [TIFF OMITTED] T7132.054
    
    [GRAPHIC] [TIFF OMITTED] T7132.055
    
    [GRAPHIC] [TIFF OMITTED] T7132.056
    
    Mr. Putnam. Thank you very much.
    Our next witness is Fred Corle. Mr. Corle is president of 
the Spatial Technologies Industry Association. The Spatial 
Technologies Industry Association, established in 1996, 
supports the industry's business development efforts in the 
public sector, improving performance of government with GIS 
technology and promotes the industry and commercial markets 
worldwide. Over 100 companies have participated in the 
Association's activities. Prior to joining STIA, Mr. Corle was 
national Federal marketing and sales director for Sun 
Microsystems Federal Inc. He managed Sun's Federal Government 
strategic market development efforts for civilian agencies.
    Welcome to the subcommittee. You are recognized.
    Ms. Corle. Chairman Putnam, Ranking Member Clay, 
distinguished members of the subcommittee, I want to thank you 
for the opportunity to testify before the subcommittee on 
behalf of the Spatial Technologies Industry Association 
concerning our views on Federal Government geospatial 
technology programs and policies.
    I have submitted a detailed written statement for the 
hearing record and will only briefly highlight the main points 
here.
    You titled this hearing, ``Geospatial Information: Are We 
Headed in the Right Direction, Or Are We Lost?'' Our opinion is 
that we are not lost, although the road has clearly been filled 
with some potholes, detours, and maybe even some wrong turns. 
Industry is ready to partner with government to build consensus 
about the best roadman that will help us achieve the great 
goals for our Nation of efficient and effective government 
services, security home and abroad, and economic 
competitiveness. In response to the important issues you have 
raised, we offer some specific recommendations for Federal 
Government policies and programs to more efficiently, 
effectively, and rapidly spatially enable the business 
enterprise of all levels of Government.
    This hearing provides an important opportunity to raise 
awareness within Congress, and not only about the challenges, 
but also about the present power and promising future of the 
application of geospatial technologies and spatial data.
    I describe the integrated spatial technologies industry and 
its various sectors in my written testimony, but suffice it to 
say that this growing industry is vital to our Nation's future 
security and prosperity. Its success depends on an effective 
partnership between industry and Government. For example, the 
global positioning system sector grew out of the defense 
sector, but now, through private sector innovation, employs 
thousands of workers in a $10 billion a year commercial 
industry. In addition, the location technology developed for 
our Nation's precision weapons systems can now precisely locate 
critically injured motorists from an emergency 911 call.
    These are two of literally thousands of applications being 
developed and implemented by our member companies. We are 
committed to creating a private/public partnership that will 
depend on private enterprise to develop innovative products 
that protect property, save lives, and, through the genius of 
private enterprise, achieve low-cost products to enhance our 
standard of living.
    Federal policies should facilitate, rather than inhibit, 
the expansion of our industry so that it can achieve its 
potential as an engine of economic growth and jobs. That 
industry expansion will result in cost efficiencies in data 
collection and availability and economies of scale that lower 
the cost of products and services and enhance our citizens' 
well-being.
    We support moving away from process-intensive and Federal 
Government-centric geospatial policies to ones that are market 
driven and citizen-centric. The Bush administration's U.S. 
Commercial Remote Sensing Space Policy, which was issued last 
year, is an excellent example of meaningful progress toward 
this goal. We believe that the Federal Government needs a well-
funded, highly coordinated business plan to acquire and 
maintain the key framework data layers of the National Spatial 
Data Infrastructure through cooperation among State, regional, 
local, and tribal governments, as well as private industry.
    The Bush administration's Geospatial One-Stop Initiative, 
U.S. Geological Survey's National Map program, the Federal 
Geographic Data Committee's grant programs, and a myriad of 
other Federal programs do represent significant progress for 
the NSDI. We need a true business plan for the NSDI and an 
integrated applications and systems to accomplish high priority 
functions of Government such as homeland security and E-
Government. This new business plan should match funding 
commitments to a business case and return on investment using 
an enterprise approach that maximizes interoperability, 
integration, and sharing. The policies should spur integrated 
interoperable systems and solutions rather than single-purpose 
applications and data sets.
    We have developed 10 recommendations which I will quickly 
run through in my final moments. Action 1, is to establish a 
blue ribbon task force for experts from Government, industry, 
and academia stakeholders' groups, White House, and Congress to 
assess the progress made to date on spatially enabling the 
Government enterprise and to recommend options for future 
policies; adopt market-driven standards for spatial data and 
GIS software interoperability; strength the management 
structure for geospatial programs by establishing a dedicated 
person in the White House OMB Office of Electronic Government; 
Action 4, establish a business plan that includes a new grant 
Federal funding program; Action 5, develop a national strategy 
to achieve the level of geospatial preparedness required to 
address high-priority homeland security threat scenarios; 
Action 6, support the development of a reliable and consistent 
metrics and data about the geospatial enterprise; Action 7, 
ensure that geospatial technologies and spatial data are well 
defined and fully integrated in OMB's Federal Enterprise 
Architecture; partner with industry and public sector 
organizations to raise awareness about best practices; 9, more 
forcefully encourage Federal agencies and Federal grantees to 
make use of standards-based commercial geospatial products and 
services to the maximum extent feasible; and, last, empower the 
DHS, in conjunction with FGDC Homeland Security Working Group, 
to take a lead role on issuing regulations and guidelines for 
spatial data security and access.
    Mr. Chairman, Ranking Member Clay, I appreciate the 
opportunity to present our views to you today.
    [The prepared statement of Mr. Corle follows:]

    [GRAPHIC] [TIFF OMITTED] T7132.057
    
    [GRAPHIC] [TIFF OMITTED] T7132.058
    
    [GRAPHIC] [TIFF OMITTED] T7132.059
    
    [GRAPHIC] [TIFF OMITTED] T7132.060
    
    [GRAPHIC] [TIFF OMITTED] T7132.061
    
    [GRAPHIC] [TIFF OMITTED] T7132.062
    
    [GRAPHIC] [TIFF OMITTED] T7132.063
    
    [GRAPHIC] [TIFF OMITTED] T7132.064
    
    [GRAPHIC] [TIFF OMITTED] T7132.065
    
    [GRAPHIC] [TIFF OMITTED] T7132.066
    
    [GRAPHIC] [TIFF OMITTED] T7132.067
    
    [GRAPHIC] [TIFF OMITTED] T7132.068
    
    Mr. Putnam. Thank you very much.
    Our third witness on this panel is John Palatiello. Mr. 
Palatiello is executive director of the Management Association 
for Private Photogrammetric Surveyors [MAPPS], the Nation's 
oldest and largest trade association of private firms in the 
geospatial field. Founded in 1982, MAPPS has more than 170 
member firms. Mr. Palatiello is also president of the firm of 
John Palatiello & Associates, a public affairs consulting firm 
in Reston, VA, providing government affairs and association 
management services to firms and organizations with a 
specialization in services to the architect engineer, remote 
sensing mapping, and GIS communities. He also serves as 
administrator of the Council on Federal Procurement of 
Architectural Engineering Services, a coalition of the Nation's 
leading design professional societies.
    Welcome to the subcommittee. You are recognized for 5 
minutes.
    Mr. Palatiello. Thank you, Mr. Chairman. I appreciate the 
opportunity to be here and share our views.
    As you indicated in your opening statement, this is a 
follow-on to a hearing that was held in June of last year, at 
which time Mr. Mike Ritchie, then president of MAPPS, was 
honored to testify. At that time, he pointed to several areas 
where we thought improvement was needed in the Federal 
Government's geospatial activities, and I would like to take a 
few moments today to update you on where improvement has been 
made and where we believe further action is necessary.
    In his testimony last year, Mr. Ritchie indicated that 
Geospatial One-Stop was akin to a cable television system that 
only carried PBS channels or a card catalogue in a library that 
only carried GPO publications. We indicated that in order for 
Geospatial One-Stop to become a true one-stop shopping portal 
for geospatial data, that private data, as well as government 
data, must be included. We are very pleased that steps have 
been taken to ingest private data into Geospatial One-Stop, and 
we give Mr. Cameron, who updated you on that, a lot of credit 
for his initiative. But there is a lot more data out there, and 
a much more aggressive outreach program must be implemented to 
ensure that the entire assets resident within commercial data 
providers is accessible via Geospatial One-Stop.
    One of the areas where there has not been any further 
action, although I am pleased that there have been stakeholder 
meetings and focus group studies and an attempt to at least 
identify problems, is the fact that neither FGDC nor GOS fully 
reached their potential because of their limited structure and 
participation. FGDC only includes Federal agencies; there is no 
representation by folks like Mr. Nagy and his organization, by 
the States, by local government, or the private sector. We 
simply do not have seats at the table. The Geospatial One-Stop 
Board includes both Federal and State and local government, 
but, again, the private sector does not have a seat at the 
table. And we believe broader participation by private sector 
interests in setting policy and strategy for FGDC and GOS will 
result in a stronger offering to better represent the interests 
of the American people and business and all stakeholders.
    At the Federal level, we have come to the conclusion that 
FGDC and GOS are not reaching their full potential because they 
are essentially voluntary and secondary responsibilities for 
the participants. Other than very small staffs at FGDC and GOS, 
for everyone else it is not their full-time job; it is 
something they do as an afterthought, after fulfilling the core 
mission of their agency. There is neither a carrot nor a stick 
to incentivize or mandate conformance. And we think a change in 
the charter and implementation of FGDC must be carried out in 
order to assure its full implementation.
    I think it is worthwhile to look at a little history, and 
we have this outlined in our statement. Prior to the issuance 
of what is now OMB Circular A-16 in 1953, in the old Bureau of 
the Budget there was a much stronger role in what was then 
called surveying and mapping within the Bureau of the Budget. 
There was a Board of Surveys and Maps that reported to BOB. 
That was later disbanded and in the 1940's it was brought into 
an actual staff position in the Bureau of the Budget. All of 
that went away when the predecessor to A-16 was promulgated and 
it was devolved down to the individual agencies.
    We believe, as you alluded to, that we should explore the 
re-establishment of an OMB office or the committee should be 
directly an OMB committee. It is our view that delegating 
responsibility for coordinating mechanisms down to the agencies 
has not been the most effective model, and that a stronger OMB 
role is necessary to make coordination, interoperability, 
duplication avoidance, and data sharing a reality.
    We would take one exception to a response that Mr. Cameron 
did make to his questioning, and that is the fact that there is 
still a considerable amount of Federal Government competition 
with the private sector in the geospatial area. There are still 
far too many agencies that have considerable production 
capabilities that both duplicate and compete the private 
sector, and a more robust effort is necessary to harness the 
capabilities and talents and technology that is resident in the 
private sector. So there is not only duplication across Federal 
agencies and on an intergovernmental basis, but there is also 
duplication of the private sector.
    With that, I was going to mention that we are not 
proceeding with a good map, but I think my time is up. But 
thank you for the opportunity to participate, and we look 
forward to working with you on these initiatives.
    [The prepared statement of Mr. Palatiello follows:]

    [GRAPHIC] [TIFF OMITTED] T7132.069
    
    [GRAPHIC] [TIFF OMITTED] T7132.070
    
    [GRAPHIC] [TIFF OMITTED] T7132.071
    
    Mr. Putnam. Thank you, Mr. Palatiello.
    Our next witness is David Schell. Mr. Schell serves as 
president and chief executive officer of the Open GIS 
Consortium, a nonprofit trade association with a current 
membership of 260 commercial, government, and academic 
organizations whose primary objective is to create a consensus 
forum and related industry collaborative for the solution of 
critical, technical, and business development problems in the 
geoprocessing community. In 1992 he left industry to organize 
the Open GIS Foundation in order to formalize technology 
transfer programs for GIS and related technologies, and to 
define and support the development of the Open GIS movement. In 
1993 he initiated the Open GIS Project and reorganized OGF as 
the Open GIS Consortium.
    Welcome to the subcommittee. You are recognized for 5 
minutes.
    Mr. Schell. Thank you very much. I have not spoken in this 
forum before, and I think before starting I would just like to 
say that I would like to in effect spend my time clarifying the 
position of my organization, and I think that is, in itself, a 
kind of policy statement equivalent to what many of the other 
participants have made, because what I am concerned with, what 
my organization is concerned with is the technology that in 
fact sets policy.
    I am very concerned about definitions, and you will not 
hear me use the term GIS, you will hear me use terms like 
spatial enablement of the enterprise. And I am very much 
concerned with the issue of clarifying the difference between 
GIS application systems and issues like data standards. I think 
there is a great deal of confusion in the language that is used 
by most people in policy positions in government about these 
things. And now I will begin my formal statement.
    I am president of the Open GIS Consortium [OGC], a 
voluntary consensus standards organization. OGC is a not-for-
profit global industry association founded in 1994 specifically 
to address the geospatial information sharing challenges that 
give rise to this hearing. The OGC's worldwide membership, 
which totals 260 entities, includes geospatial software 
vendors, government integrators, information technology 
platform providers, U.S. Federal agencies, agencies of other 
national and local governments and universities.
    To position my organization a little better, I would like 
to begin by pointing out that the network of public/private 
partnerships embodied by OGC has accomplished literally for the 
geospatial information community something similar to what the 
U.S. railroad companies had accomplished in 1986, when they 
achieved consensus on the adoption of a common rail gage. I 
think this is a very important thing for everybody to 
understand because it is at the heart of the issue of software 
versus data. By having a common gage, they eliminated the 
excessive cost of transshipping freight and passengers across 
previously impassible junctions defined by differing and 
proprietary track designs. What the railroads did with track 
gage the OGC has done with standards that enable technology to 
transship geospatial information between and among differing 
and proprietary computer application systems, with similar 
immediate cost savings and even more dramatic financial 
benefits for long-term institutional and societal developments. 
This is the key issue.
    In this light, I would like you to imagine one of the 
results of this. Imagine a road contractor who uses one 
vendor's software to develop a plan for a street, and then 
directly over the Internet updates a city highway department's 
street data base, which the department holds in another 
vendor's software. Notice, another vendor's software which can 
be accessed in realtime. Next, a policeman uses a third 
vendor's software on a handheld device to view a simplified map 
generated from the highway department's street data base so he 
can route traffic around the scene of a fire. The multiple 
vendor systems work together in realtime because they use the 
same open standards-based software interfaces. Again, this is 
the point, open standards-based software interfaces.
    Due to the work of the OGC, ISO, and other standards 
organization, a framework of standard-based technologies now 
exists upon which Government can build at reasonable cost 
capacity for interagency data sharing and decision support 
using geospatial information. Hundreds of commercial products 
now implement OGC member-defined standards. Hundreds of 
organizations. Major organizations now integrate location 
intelligence as a ubiquitous capability in their enterprise 
architectures by implementing the OGC standards. With this 
acceptance in the market, we are at a critical point in the 
spatial enablement of Government, that is, the barrier-free use 
of spatial information in the enterprise.
    But important work does remain. There are two kinds of 
standards relating to geospatial information. First, there are 
the data content standards that govern what specific codes or 
alphabets are used to record the details of spatial location or 
the shape of geographical structures. Developing data content 
standards is the focus of the FGDC. Second, there are the 
interoperability standards that govern the software interfaces 
used to access, manage, and communicate geospatial data within 
operational IT systems, whether located in a single location or 
widely distributed among a variety of different proprietary 
software systems and the Internet.
    The OGC is the only organization that develops and promotes 
such geoprocessing interoperability standards. The OGC does the 
same kind of work the Worldwide Web consortium does, but our 
efforts are focused specifically on geospatial technologies.
    Your theme for this hearing is ``Geospatial Information: 
Are We Headed in the Right Direction, Or Are We Lost?'' We are 
headed in the right direction in the sense that both the FGDC 
and the OGC continue to develop the necessary standards. We are 
lost to the degree that, in practice, policymakers have 
overlooked the importance of OGC's interoperability standards 
efforts and have not accepted and done what is necessary to 
reap the benefits of OGC's work. A policy commitment to the 
development and deployment of both geospatial data content and 
geospatial interoperability standards is critical to a national 
strategy for geospatial information sharing.
    The way forward requires leadership and policies that 
promote development and uptake of content standards and 
interoperability standards. Our key recommendations are 
documented in our written testimony. Here I wish to emphasize 
one key observation: The Government's geospatial information 
goals would be attained sooner and at less expense, far less 
expense if there were stronger agency participation in the 
OGC's open and collaborative industry process. Only through 
active participation and support can Government ensure that 
unfinished standards such as those evolving for broad access 
and application of sensor data, geospatial data, geospatial 
digital rights management and data security be developed to 
reflect the needs of the public and the requirements of the 
Government agencies entrusted to serve the public interest.
    Mr. Putnam. Mr. Schell, if you could just summarize real 
quickly, and then we will get to Dr. Cowen. We can revisit this 
in questions.
    Mr. Schell. OK. In conclusion, on behalf of OGC, I thank 
you, Chairman Putnam and Ranking Member Clay, and the 
distinguished members of the committee. And I am sorry I went 
over my time; there is a lot to say.
    [The prepared statement of Mr. Schell follows:]

    [GRAPHIC] [TIFF OMITTED] T7132.072
    
    [GRAPHIC] [TIFF OMITTED] T7132.073
    
    [GRAPHIC] [TIFF OMITTED] T7132.074
    
    [GRAPHIC] [TIFF OMITTED] T7132.075
    
    [GRAPHIC] [TIFF OMITTED] T7132.076
    
    [GRAPHIC] [TIFF OMITTED] T7132.077
    
    Mr. Putnam. There is a lot to say, and we are going to try 
to get to it. We want Dr. Cowen to have an opportunity, though, 
before we are called away for votes.
    Dr. Cowen is our final witness on this panel. David J. 
Cowen is Chair of the Department of Geography at the University 
of South Carolina and a Carolina distinguished professor. He is 
the current Chair of the Mapping Science Committee of the 
National Research Council and has been actively involved in 
spatial data handling for more than 30 years. He is also the 
co-director of the NASA Affiliated Research Center. He has 
served as the president of the Cartographic and Geographic 
Information Society and as a U.S. delegate to the IGU 
Commission on GIS. During his career, he has been involved in 
scores of GIS projects relating to a wide range of topics, 
including economic development, land use changes in real 
estate.
    Welcome to the subcommittee. You are recognized.
    Mr. Cowen. Chairman Putnam, Ranking Member Clay, 
distinguished members of the subcommittee, it is my privilege 
to testify before the subcommittee on behalf of the National 
Research Council's Mapping Science Committee. We greatly 
appreciate being included in today's hearing. The Mapping 
Science Committee was created in 1989 and has severed as a blue 
ribbon committee of experts from all levels of Government, 
academia, and the private sector, and we provide pro bono 
service to the Nation. Our committee provides independent 
advice on scientific, technical, and policy matters relating to 
spatial data, and we promote the informed and responsible 
development and use of spatial data.
    Since 1989, we have conducted 15 studies that relate to the 
way that we can improve the way the Federal Government makes 
spatial data available to all aspects of society. Today we are 
pleased to present to the committee copies of our most recent 
report, a Geospatial Framework for the Coastal Zone: National 
Needs for Coastal Mapping and Charting. This report highlights 
the cooperation between NOAA and the USGS to integrate 
elevation and bathimetric data.
    I will point out to you, Mr. Chairman, that is Tampa Bay on 
the cover.
    We also will soon release our comprehensive study on 
licensing geographic data and services that addresses one of 
the most significant obstacles that we have.
    It is important to address the specific issues relevant to 
this hearing. Most importantly, the Mapping Science Committee 
believes that in the last year the Federal Government made an 
important midstream adjustment and the path is much better 
marked than it was previously. We are pleased to see the 
articulation of the distinct but related roles of the FGDC, the 
National Map, and Geospatial One-Stop. This model of a three-
legged stool appears to cover the major bases in a coherent 
manner.
    We believe that the role of FGDC is clear and that the 
organization has served as a valuable focal point for the 
coordination of Federal activities. However, and this is 
important, we do not believe the FGDC has had sufficient clout 
to get its work done in an expeditious manner. We have found 
its partnership programs to be underfunded, too short in 
duration, and not sufficiently rigorous. We also believe that 
its future plans do not express the urgency required to 
complete their valuable work. We would also encourage the FGDC 
to adopt a less Federal-centric governance structure.
    A recent committee report provided an in-depth analysis of 
the USGS plans for the National Map. We found the concept of 
the National Map to be ambitious, challenging, and very 
worthwhile. We also encourage the agency to develop a more 
rigorous implementation plan to place a priority on building 
the necessary partnerships. We are pleased to see the progress 
that the USGS is making on all these fronts. The National Map 
is the critical data leg of the NSDI stool; it holds great 
technical and institutional promises for changing the way that 
the public sector assembles, integrates, and distributes 
geographical data. However, the plan requires voluntary 
participation from partners and unfortunately, from local and 
State government perspectives, there are few incentives to 
create these partnerships.
    Geospatial One-Stop is the third leg, and it represents the 
one that we still have to evaluate. The committee has not 
conducted any specific studies about this. These are my 
personal viewpoints about Geospatial One-Stop. First of all, 
and most importantly, it is the place where agencies come 
together and define what their future position is on spatial 
data acquisitions. However, the Geospatial One-Stop is not 
necessarily the place their users are going to go to acquire 
spatial data or to discover about it. We believe that the 
marketplace will determine whether that aspect of Geospatial 
One-Stop will be important or not.
    I would like to also comment on the importance of 
partnerships and why I believe that the absence of partnerships 
is a major obstacle that we face. The Census Bureau and the 
USGS have worked to establish partnerships with State and local 
governments such as the North Carolina One Map program. I want 
to point out the National Map and its partnerships. There are 
no Florida GIS operations listed as partners of the National 
Map, although we know there are some excellent GIS operations 
going on.
    I want to comment a little bit about my county, my county, 
Richland County, SC. It has very high resolution data spatial 
data. I have a little example of this. We have excellent 
digital aerial photography, existing building footprints, 
highly accurate street center lines, complete addresses, and 
all kinds of very important data for homeland security. The 
unfortunate message is that this data will not be available to 
the Census Bureau for the 2010 census. This is protected by a 
licensing program that prohibits that data from going to the 
public domain. So I think it is an egregious error to allow 
that to happen.
    I think I better close my statements now, and appreciate 
very much being asked to be here today. Thank you.
    [The prepared statement of Mr. Cowen follows:]

    [GRAPHIC] [TIFF OMITTED] T7132.078
    
    [GRAPHIC] [TIFF OMITTED] T7132.079
    
    [GRAPHIC] [TIFF OMITTED] T7132.080
    
    [GRAPHIC] [TIFF OMITTED] T7132.081
    
    [GRAPHIC] [TIFF OMITTED] T7132.082
    
    [GRAPHIC] [TIFF OMITTED] T7132.083
    
    Mr. Putnam. I want to thank all of you. This worked out 
clearly well for us to get through the testimony. We have 
approximately five votes that I estimate will be 40 to 45 
minutes before we can return, so we will recess for 
approximately 45 minutes, until such time as we can come back 
from the floor. Hang loose, enjoy your orange juice, and we 
will be back as soon as possible.
    The subcommittee is in recess.
    [Recess.]
    Mr. Putnam. The subcommittee will reconvene. If everyone 
would please take their seats. And at the appropriate time, as 
soon as everybody is settled, I will recognize Mr. Clay for 5 
minutes.
    Mr. Clay. I thank the chairman and thank the panel for 
being here. I will start with Mr. Cowen, if we may.
    In your opinion, does the Federal Government have a 
business plan that is equitably sharing the cost of building 
and maintaining the framework data layers of the NSDI with non-
Federal levels of Government and the private sector?
    Mr. Cowen. Let me put that in the context of what I think 
is the most important aspect of geospatial data, and that is 
the land record parcel data. The fundamental building block for 
society is the property that we own. A land parcel, as defined 
by your tax map, defined by your county assessor, it provides 
an authoritative source of information about who owns a piece 
of property, its use, and its value.
    I believe that it is important to build what we call a 
nationwide multipurpose cadastre to do that. The only 
information we know about what is happening on the ground about 
property is developed at the local level, so local level data 
should be forwarded to States, States should organize that, and 
States should provide that to the Federal Government. Right now 
there is no incentives for doing that at the local level.
    Several years ago, 20 years ago or so, when I first served 
on the Mapping Science Committee, the Federal Government never 
mapped data at a high enough resolution of accuracy to have 
individual parcel level data, but now it is possible to do 
that. In the 1980, the National Research Council put forth a 
proposal for what we call a national multipurpose cadastre, and 
it called for a very strong role by Federal Government to 
organize the information that we are talking about. We think it 
is time to look at that again and find out should the Federal 
Government be investing in supporting the local level data that 
is needed for a nationwide 911 system. When you call for an 
ambulance, that ambulance should be able to find your house. 
Only the local government people have that information.
    When the census wants to do its 2010 update, shouldn't it 
be able to just go grab the most recent local level data? We 
are spending $320 million, the Census Bureau is, working with 
every county in the United States to get the best set of street 
center line for the 2010 census. We believe that the Federal 
Government should help subsidize local government so that they 
can use the data at the local level. States can take that data 
and do such things as equalization of educational finance. 
Shouldn't we know the value of property throughout a whole 
State so that we can equitably finance local education? Things 
like Leave No Child Behind require that kind of information.
    So the answer to your question, sir, is no, I don't think 
the Federal Government is doing the right thing.
    Mr. Clay. Thank you for that comprehensive answer.
    Mr. Corle, let me go to you. Are Federal agencies engaging 
in geospatial data collection efforts that could be better 
conducted by the private sector? And what kinds of geospatial 
activities would be best undertaken by the private sector?
    Mr. Corle. Ranking Member Clay, the Federal agencies 
clearly have a role in the data collection in this whole area, 
going back to Lewis and Clark. I mean, there is a long history 
of this. So the question I think in terms of the evolution of 
technology and what the private sector role is and I think the 
NGA folks earlier today indicated that they have now begun to 
outsource some of their needs to the private sector.
    Part of our role as a trade association is really looking 
at how we can support the growth of our industry's capabilities 
to meet these growing needs. And as the capability develops and 
as the industry grows, you achieve economies of scale that 
lower the cost and make this technology more ubiquitous and 
cheaper to address protecting property and saving lives.
    So it is really a long-term kind of a transition of 
government agencies outsourcing capability, industry developing 
capability, and ultimately economies of scale lowering the cost 
of this technology. So it is a long-term process, but clearly 
Federal agencies are involved in some of this, but it is moving 
in the right direction.
    Mr. Clay. Thank you for that response.
    Mr. Nagy, what incentives could the Federal Government use 
to encourage States to better coordinate their geospatial 
investments with the Federal Government?
    Mr. Nagy. There are probably a couple answers to that. One, 
we can take a look at some of the traditional methods, of 
incentives of using dollars to provide to cost shares, as an 
example for equitable cost shares for data production in local 
government and in State government and in the development of 
applications. There are other programs where that kind of 
mechanism has been used by Federal Government as an incentive, 
to withhold or to provide dollars for cost shares. An awful lot 
of public funds are being expended to build local and State 
data systems, and it is not always clear in where the Federa 
share is coming from, and they could provide for some 
additional dollars to support that.
    The other is relevancy. And I think that when we actually 
see vertical integration between local data, State data, local 
regional data, and Federal Government and see local investments 
in aerial photography, street center line data showing up on a 
Federal product that actually has relevance back to a local 
,government such as a flood insurance rate map or for other 
emergency management purposes, then there is an incentive for 
the local community to actually share that data, because it 
means something to them in the end. So that joint ownership of 
that entire product is very important as an incentive, I think, 
for sharing data and working on systems together.
    Mr. Clay. I thank you for your response. I think you and 
Dr. Cowen make the point that some of this data collection 
could be done in a more inexpensive way and a more efficient 
manner if there was better coordination. So I thank you both.
    Mr. Putnam. Thank you, Mr. Clay.
    Mr. Nagy, I want to followup on that. We all appear to be 
in agreement State and locals are doing an awful lot of this. 
What is the level of maturity at the State and local level of 
their GIS information?
    Mr. Nagy. There are pockets of maturity that are very 
advanced, especially in metropolitan areas, especially in areas 
where there have been long coordination programs established 
within States. There are pockets of maturity where there has 
been a lot of involvement from all the stakeholders, and that 
includes local government, the private sector, academia, State 
government, and the Federal Government as well.
    The business case for organizing data within States is 
increasing, and what I am seeing is that a lot of organizations 
within States are making their own business cases for 
developing their own State-based NSDIs. And I think part of 
what we are seeing is the maturity of the coordination efforts 
and the characteristics that are described in the exhibit here 
that show how important it is to have an authority for 
coordinating GIS, some sustained dollars involved in GIS, and 
also some of these other characteristics, as well lend itself 
to the maturity we are seeing.
    I think one thing we don't see as often is many of the 
Federal organizations participating in the development of those 
systems, and that is one thing that we could actually suggest, 
is that more Federal organizations participate and become 
involved in the planning for those systems.
    Mr. Putnam. Could you elaborate on that? Let us name names. 
Which department is doing a good job of coordinating and which 
ones are; which ones ought to be?
    Mr. Nagy. I can base some of those experiences on mine in 
North Carolina. What is effective within States is when we are 
working on the National Map program, where there is a liaison 
from the National Map that is actually stationed within the 
State that is working with us every single day on initiatives 
that bring geospatial data programs together between the 
Federal programs and the State programs and the local programs. 
That is a USGS representative. We would invite other Federal 
organizations to do the same and to work closely with us on 
developing those systems.
    Mr. Putnam. Dr. Cowen, is that the point that you are 
trying to make in your slide presentation which highlighted 
God's country in Florida? The USGS map from space, or someplace 
close to it, just about as useful, and the other one is 
Mapquest, that brings you straight into it, is that the point 
that you were trying to make?
    Mr. Cowen. That is exactly the point I am trying to make, 
sir. It is clear that we have Web-based technology like 
Mapquest. Mapquest was built on Census Bureau data and it 
expanded upon that. It is time for the Census Bureau to work 
directly with local governments and make sure that we have 
current and up-to-date data. The USGS National Map program is a 
voluntary program; State and local governments have to raise 
their hand and say we wish to submit our data. I don't believe 
that this is any way to do business. I think we can't rely on 
voluntary participation, we have to have a series of carrots 
and sticks that are going to make the National Map truly 
comprehensive. I think it is a real shame. We are missing the 
type of data that local government is collecting.
    A report that we did on the National Map pushed forward a 
scenario that said if everybody worked together nicely, when we 
had to do the 2010 census, all you would do is go grab the 
street center lines and addresses from the National Map. We 
should have a coordinated program, and this was called for in 
1980 by a National Research Council Committee, active role by 
the Federal Government to incorporate local governments 
organized at the State level and feeding the data up. And if 
you could do it in 1980, we certainly could do it today.
    Mr. Putnam. OK, you triggered two paths here. Mapquest, the 
basis of Mapquest is census data?
    Mr. Cowen. Originally it was based on the Tiger data files. 
Now, the Census Bureau starts with a process of they only have 
a decennial interest, right? So Mapquest started with taking 
the Tiger data and saying that this isn't positionally 
accurate, it is out of date, so we are going to work out 
arrangements to track transactions at local government. But the 
fundamental building block was an initiative by the Census 
Bureau.
    Mr. Putnam. The National Map is voluntary. What carrots and 
sticks do you suggest to make it comprehensive and complete?
    Mr. Cowen. Our Mapping Science Committee met last week and 
we heard about a very interesting program that the Department 
of Transportation put together. They said we need a 
comprehensive data base of all of the pressurized natural gas 
lines in the country. Now, natural gas lines are owned by local 
utility companies. So how does the Federal Government encourage 
local utility companies to provide that data? Well, they said 
you will do it in 6 months, you will do it in any format you 
have, a paper map or anything else, and if you don't do it, we 
will fine you $1 million. It got done.
    Mr. Putnam. That is the stick.
    Mr. Cowen. That was a pretty good stick.
    Mr. Putnam. What is the carrot?
    Mr. Cowen. Well, the carrot was in some cases a local 
utility company just had a paper map that showed where its 
lines were. Well, they submitted that and, in fact, the 
Department of Transportation then digitized that, made that 
into a GIS data base and gave it back to them. So they got some 
value added as a result of that. The problem with that, just 
take that little example, natural gas pipelines in the United 
States. Shouldn't that all be on a common base map? Shouldn't 
we have high resolution photography so we know exactly where 
those things are placed? Shouldn't we know how those things 
relate to other types of our infrastructure? We don't have this 
common base for this country, what we call framework data that 
FGDC has talked about. We ought to build out that framework 
data, and the Federal Government should help do that.
    Mr. Putnam. What is the data framework for the National 
Map? What are the stated parameters for the National Map? The 
datums that could be incorporated into it could be endless, I 
would think.
    Mr. Cowen. They are endless. They are absolutely endless. 
But there is something that we call framework data. If everyone 
has the same framework, which would include a high resolution 
aerial photograph--I included that example in there. That is 
not a high resolution aerial photograph. In my county, I can 
show you one-foot pixels, I can show you the footprint of every 
building. I know that my street center line falls in the right 
location. So we need what we call digital oriphal photography 
so we have a high resolution base so the Census Bureau can put 
its streets in the right place and make sure that they fall not 
in terms of somebody's property, but on the right-of-way. So we 
need that. We need a high resolution topography data base, and 
FEMA has worked hard on that. Zsolt didn't talk about the 
program that FEMA has in terms of providing what we call lidar 
data, very high resolution digital elevation data. In your own 
State, it is not adequate to have 10-foot or 20-foot contour 
lines, you need half a foot contour lines. If the east coast of 
Florida gets hit by a hurricane, you would like to know exactly 
where that flood is going to go and what property is going to 
be impacted, the value of that property that is going to be 
impacted by that.
    So it calls for a series of framework data, and then other 
people can put their layers together with that.
    Mr. Putnam. Mr. Nagy.
    Mr. Nagy. In terms of the implementation of those framework 
data, those are very, very critical. When we get into settings 
with local governments and when they are looking at building 
their GIS systems to meet their local business requirements on 
a day in and day out basis, they are looking at, easily, 16 to 
20 different themes of data that are important for them, 
everything from voting district boundaries to infrastructure 
and water and sewer; and they are building those for their own 
purposes.
    One huge objective is to put the framework data sets in 
place, into a seamless base map upon which all local 
governments can build their data so that those data can be more 
easily shared across the board to serve all applications, 
whether it is for economic development or homeland security, 
emergency preparedness, or conservation and planning exercises.
    Mr. Putnam. For all of you, what is the appropriate agency 
or department to head up this effort? If you are looking for 
accountability, if you are looking for a clear sense of 
direction about where we ought to be going, who ought to be in 
charge?
    Mr. Cowen. I would volunteer that if you look at the OMB 
Circular A-16, it defines custodial responsibility. It 
specifies which agencies should be responsible for different 
layers of the framework data. I think it is pretty clear. I 
mean, the USGS, I think, has the lead role for coordination of 
those activities, and setting up that framework and getting it 
done, and I think the National Map provides the umbrella to put 
all that together. I mean, A-16 spells it out pretty directly.
    Mr. Putnam. Anyone else?
    Mr. Palatiello. Mr. Chairman, my organization has been 
looking at this issue for a great number of years, and I think 
we have come to the same conclusion or are narrowing our 
options to the same conclusion I think that you may be coming 
to, and that is that it has to be at OMB, for accountability 
reasons and primarily for budgetary reasons.
    I have here a 1973 report that OMB did, the most 
comprehensive governmentwide study of Federal, what they called 
then, mapping, charting, geodesy and surveying. I have loaned 
this to your staff. They recommended the creation of a single 
Federal surveying and mapping administration in 1973. The model 
that they used is what is now NGA. NGA was NIMA, and before 
NIMA it was the Defense Mapping Agency. The Defense Mapping 
Agency was a consolidation of very disparate mapping activities 
spread among a big part of the Department of Defense and the 
intelligence community, and there was a consolidation into a 
single agency. And that model is what OMB recommended in 1973. 
Unfortunately, President Nixon had to leave office and didn't 
have a chance to implement this, but this was on his desk the 
day he resigned.
    Now, the creation of a new Federal administration, a new 
agency, I don't think, our organization does not think, it 
works anymore, and the reason is that we talk a lot about 
duplication and redundancy, but there is a lot of very special 
purpose, single-purpose mapping and geospatial data collection 
that is done by agencies, and some duplication and redundancy 
is unavoidable. And in order to fulfill each individual 
agency's mission, it is going to have to have its own program 
and its own activities in the geospatial area. So trying to 
have a one-size-fits-all agency, I don't think works.
    The idea, though, of having a stronger traffic cop in OMB, 
I believe does work. Let the agencies still have their own 
missions and program, but right now I would respectfully 
disagree with Dr. Cowen. We do not believe A-16 works because 
there is no enforcement. And I think you heard testimony here 
today that steps are being made in the right direction, but, 
for example, I have been very disappointed that both the staff 
of Geospatial One-Stop and the staff of FGDC are located in 
Reston at the USGS. To me, that sends a message across the 
Government. It is a message that this is not a high level OMB 
activity that everybody has to pay attention to. I think it 
sends a signal that is a USGS program, and if we can play nice 
with them, that is fine, but we have our own mission to carry 
out.
    So putting it in any individual agency, whether you try to 
put it in DHS or you try to put it in USGS, or any of the 
current operational agencies, I think would be a mistake, and I 
think that OMB is the place to do it, either through some 
position or, as you suggested, some coordination with a 
geographic information officer in each agency. But there has to 
be some (a) leadership and (b) some accountability and 
relationship to the budget process to make this work, and, to 
me, OMB is the place.
    Mr. Putnam. Mr. Schell.
    Mr. Schell. I have to agree with that, but for a different 
reason, and one that I tried to express before. This issue can 
no longer be looked at as simply a geographic information 
issue. You have issues that relate to the information 
technology infrastructure of the Nation, issues of system 
architecture. I think where you see some of the most important 
activity going on in agencies that are concerned with spatial 
information, like in Homeland Security there is an enterprise 
architecture effort underway. The same is true in the DOD, 
which probably has more use of spatial information than anyone 
else. You find that spatial information becomes a really vital 
aspect of enterprise architecture.
    Now, I think that one of the problems we have had so far is 
that the National Spatial Data Infrastructure has been under 
the control, you might say, of organizations that have been 
primarily concerned with geography. It is not geography, and it 
is not even framework data; it has to do with spatial 
information and the way spatial information is used within 
enterprise architectures, it is integral to it. Everything 
about the Web, the spatial Web, the semantic Web, these are 
things that are embracing information technology issues, and I 
believe that if we have a central--I believe you are referring 
to the fact that OMB is in a position to provide some 
supervision over information technology architecture in the 
Government in general--if that is the case, then I see there is 
no other location within the Government to deal with this.
    I think people don't understand the incredible significance 
of spatial information in terms of the way the whole 
information infrastructure is being evolved. It is not just 
geospatial, it is much more general. So it needs to be in a 
location where the issue is management, and not simply a 
question of figuring out issues that relate specifically to 
geography.
    Mr. Putnam. I am trying to digest all that.
    Mr. Schell. Well, it is a big thing to digest, but I will 
tell you, from where I sit, running a private sector consortium 
that deals with major industry all over the country, what I see 
is that our industrial base is critically dependent on spatial 
information. Almost any major corporation you go to, you will 
find that there is a major dependence on spatial information 
one way or another. Look at utilities; look at all your 
distribution and logistical organizations. You find that our 
economy runs to a very great extent on the integration of 
spatial information with enterprise architectures. We are 
talking about, in a way, in our national spatial data 
infrastructure, of enfranchising the whole commercial sector, 
and you are talking about what is turning into one of the most 
important management approaches within the commercial sector of 
this country.
    And one of the issues that has been brought up today is 
that the Government is depending more and more on the 
commercial sector for its spatial data resources. Well, the 
commercial sector is ubiquitous, and it is doing more in the 
area of developing and using and processing spatial information 
than the Government will ever do. So you have to look at this 
as quite literally a management issue, and you have to have 
ways of assessing how much activity there is in the area of the 
development use and general, you might say, management 
efficiencies involved in using spatial information, and the 
Government becomes, you know, a special case of that.
    Mr. Putnam. Let me jump to the private sector. One of the 
inefficiencies that was identified in the Federal Government is 
the situation where the same geospatial data is being purchased 
by a number of different agencies at varying prices. Obviously, 
that might actually be beneficial to the vendor community. So 
help walk me through where you see the first bite of the apple 
in efficiencies are and how that will help the public sector 
save money and help the private sector as well.
    Mr. Palatiello.
    Mr. Palatiello. A very good example, Mr. Chairman. This 
came up when GAO did a focus group session with my membership, 
and one of my members brought to GAO's attention the fact that 
about a half dozen different Federal agencies were mapping 
Mobile Bay, AL at the same time in the same year. Now, again, 
some of that you can shake your head at and say that is 
terrible. Part of it is unavoidable. For example, if one agency 
has a lower resolution, smaller scale mapping requirement and 
another has a higher resolution, larger scape mapping 
requirement, the latter can be aggregated to fit the former, 
but you can't go the other way technically, so there are 
reasons why two people would need to map the same area at the 
same time at two different scales and resolutions.
    But the fact of the matter is you had five or six different 
agencies mapping the same area at the same time, and one would 
say, well, you guys in the private sector, if those were all 
contractors doing it, you benefited from that. But think of it 
this way. When is the Federal Government going to revisit 
Mobile Bay? It is probably going to be 10 or 15 years. If we 
had taken that money that we spent in 1 year and duplicated it 
and remapped and instead revisited over a period of years, that 
would be in the better interest of the taxpayers. The business 
would still be there for the private companies to do the work 
for the agencies, but it would be a sounder investment by 
spreading it over time and revisiting.
    Remember that there is some mapping data that is somewhat 
static and can be used over time, but also keep in mind that 
every time a new road is built, every time a new house is 
built, every time somebody goes to the courthouse and files a 
survey plat for a new subdivision, the geography of this 
country has changed. There are thousands of those transactions 
that happen in courthouses in the 3,200 counties of this 
country every single day. So one of the biggest mistakes that 
is made with GIS, particularly at the local government level, 
is they will make an investment in the first year and say we 
have this great system, and then they don't budget for 
maintaining it over time and the data gets stale and the 
utility of that GIS goes down. So if you spread that investment 
over time and keep the data fresh and, again, collect it once, 
use it many times, and then go back in the next year and 
collect it again, that is more efficient than five or six 
agencies mapping the same area at the same time.
    Mr. Putnam. Does the technical capacity exist under Mr. 
Schell's framework that it would automatically update itself, 
it would automatically make itself accurate every time there is 
a property transaction? I mean, obviously you have to 
physically take the picture to see movements of sandbars in 
Mobile Bay, but the other pieces of the puzzle, an extension of 
a natural gas pipeline, the construction of a new transmission 
line, does the capacity exist for that to automatically correct 
itself without having to reinvent the wheel, so to speak?
    Mr. Schell.
    Mr. Schell. The technology exists, it is a question of your 
priorities as to whether or not you are going to implement that 
in a given situation. These things happen now. The situation 
you just described happens now in many places. It is a question 
of whether or not you have software architectures that are 
capable of integrating the various data sets, for example, a 
base data set and then a set of changed data that might be, in 
fact, collected with a different system, perhaps a more modern 
system, perhaps different technology, and then merging the two. 
The technology does exist. Again, my message is that the 
priorities need to be set so that we can look more at the 
technology. I don't mean less at the data, but more at the 
technologies that enable us to automate some of these 
processes, because in automating some of these processes, what 
you can do is eliminate some of the costs in building multiple 
versions of the same data set.
    Mr. Putnam. Mr. Palatiello, did you have a comment on this?
    Mr. Palatiello. There are not in the commercial sector 
artificial intelligence systems where you can do what you 
described without human hands touching it and doing some 
processing to do the change detection. It is highly automated, 
and your second generation map is going to be much less 
expensive than your first generation map because you don't have 
to go and remap every feature, you just map the changes. But 
there is still a professional service involved in working with 
that data to identify those areas that have changed from time A 
to time B.
    Mr. Putnam. Dr. Cowen.
    Mr. Cowen. Yes. One of the things that we in universities 
do is look at cutting-edge research, and that has changed with 
respect to the quality of the data that is being provided now 
in the private sector. In this past year I had a master's 
thesis that looked at what we call digital globe data, which is 
satellite data of basically two-foot resolution, and it said 
could we look across our county and identify by using 
commercial satellite data where new roads and where new houses 
have been constructed, and the answer is yes, we can, because 
we have basically 2-foot type resolution.
    So that means that you don't have to--a lot of money is 
spent on aerial photography missions that cover the entire 
county again, when in fact we know all we are really interested 
in is where have the changes taken place. So, therefore, if you 
can identify where the changes are, even if you have to go out 
and visit those things in person, there are ways to identify 
where the changes are taking place and then to trap those kinds 
of transactions. And, of course, the individual transactions 
take place at the courthouse, but clearly, my little example 
there is every developer is required to do a digital submission 
of any planned subdivision. Now, the beauty of that is the 
planned subdivision is in the data base. I have an example 
there that shows you where planned roads are. Well, again, you 
are on a constructionsite, there is a new house being built, 
and you have an accident. In most 911 systems, the ambulance 
can't find that address. In this system, with digital 
submission of the plans--and that was just county government 
requiring that of the developers to do this; you won't get 
permission for your new development plans, your new roads or 
other type of utilities unless you submit things digitally to 
us, and that has happened. So then you trap those transactions 
even before they are constructed. I mean, it is happening out 
there in local government.
    Mr. Putnam. Final comments before we wrap up. We will start 
with Mr. Nagy. Anything that you would like to leave with the 
subcommittee that you were not asked or you would like to 
complete a thought, perhaps.
    Mr. Nagy. Well, for the past few years, maybe a decade or 
so, we have been working off of this notion of discovering data 
for our business applications and our GIS systems and such, and 
I think we are transitioned to a point where, because of many 
other business requirements that transcend an entire region, an 
entire State, an entire country, we need to be at a point where 
we have reliable data that is in place across the country, and 
that is for those seven or eight framework data sets, and 
probably another 20 data sets as well. In terms of maturity, 
there are many haves out there; we also have many have-nots. 
And then we also have what I call the half-nots, which are the 
folks that are in between that are able to participate to a 
certain extent, but not completely.
    So we have to solve for the complete picture and we have to 
solve at the local level, and it has to include Federal 
participation. Local government consortia and State government 
consortia need to have an easy way to get to Federal Government 
to negotiate things like equitable cost shares or talk about 
what the payback is for participating in sharing of data and 
such, such as the FEMA map or the USGS National Map, because it 
really is relevant for local, States, and Federal groups 
altogether.
    Mr. Putnam. Mr. Corle.
    Mr. Corle. I would just make a brief comment. I think I 
certainly agree with many of the comments that have been made 
here today in terms of the role of the private sector and 
certainly the role of Government. I would like to suggest, 
however, that we have talked about the stick, and certainly 
OMB, as a coordinating body, there is a lot of merit to taking 
a look at what their role would be in coordinating at the 
Federal level. I think that one of the things that our industry 
association has worked on with industry, with our member 
companies, is looking at the carrot aspect of it, and a funding 
program that would provide resources on a cost-shared basis 
over a sustained period of time, along the lines of mapping and 
doing it on a sustainable basis that would develop this sort of 
national level capability.
    So our view of the world would be to first address the 
coordination and the issue that your hearing today is focused 
on, and then second of all would be, in the medium to longer 
term would be to create a national Federal funding program that 
would require standards and a series of other requirements that 
communities could then make those investments that would 
support Federal requirements. For instance, the Secret Service 
is tasked with providing security at national events. They are 
going to be supporting the conventions in Boston and New York 
this year; they were in Salt Lake; they go to New Orleans. So 
there are a number of activities that the Federal Government is 
involved in, and certainly since September 11, that building 
this national capability will support those kinds of 
activities. And so from a high level perspective, it is really 
creating that kind of partnership, that Federal funding 
incentive, the OMB stick that would kind of transform these 
relationships so that we can build this national capability.
    Mr. Putnam. Mr. Palatiello.
    Mr. Palatiello. Thank you, Mr. Chairman. Three points I 
would like to highlight. One is in terms of intergovernmental 
partnerships, I think there are some best practices models that 
would be worth the committee's attention. One is the National 
Map. The USGS, over the years, with their digital ortho program 
and the National Map, have had two ways to provide, in some 
respects, both a carrot and a stick, and that is they do what 
they call innovative partnerships and what they call joint 
funding agreements. A joint funding agreement is when a State 
brings money to the USGS and says we will partner with you and 
cost-share the mapping of our State, and the State agrees to do 
it to the USGS standards so that it contributes to the National 
Map.
    The innovative partnerships is basically a grant, it is 
when Federal money goes to the State along the same lines. Then 
the mapping will be done to USGS standards and it ends up going 
in the National Map.
    The problem is that Congress has not provided sufficient 
funds for USGS to meet the demand of what they are getting from 
the States. So the demand is out there, but the seed money from 
the Federal Government has not been sufficiently appropriated.
    The second is NOAA has a Coastal Services Center in 
Charleston, SC, where they will do a data buy and they will 
provide the geospatial data to the States in a coastal zone and 
work with them to have the data they need for permitting and 
infrastructure maintenance, environmental management, and all 
the other applications that are necessary in a coastal zone.
    And the third was a program that is now gone, but it was 
called the National Aerial Photography Program [NAPP], and, 
again, the USGS coordinated that; there was an interagency 
coordinating committee. Their goal was to refly the entire 
United States on a 7-year cycle, and they set priorities based 
on who came to the table with funding, whether it was other 
Federal agencies or State and local government. When sufficient 
money came to the table to do your State, it got done. But, 
again, that was the incentive, that was the carrot, if you 
helped pay for it, you got to the top of the line.
    Two final things. One is as long as we have been in this 
business, there is still not a clear definition of the 
respective roles of all of the parties and all the 
stakeholders. You heard it today about Federal, State, and 
local on an intergovernmental basis, and there still is not a 
good definition of roles and responsibilities on the part of 
the Federal Government with regard to the role of the private 
sector. The Government is still trying to do too many things 
that are best left to the private sector.
    And the final thought that I would leave with you, and 
perhaps Mr. Schell is the expert and can elaborate on this more 
than I, but I am convinced that the challenges and the 
obstacles that we have, they are political, they are 
bureaucratic challenges, they are not technical challenges. The 
technology in this community is extraordinary. For example, 
interoperability is not a technical issue, it is a political 
and administrative issue.
    Mr. Putnam. Mr. Schell and Dr. Cowen quickly?
    Mr. Schell. I appreciate the lead-in, because I think you 
are absolutely right in mentioning that it is policy issues, it 
is not technology issues which are our barrier. Technology 
exists right now to do things like compilation of heterogenous 
data sets, the integration of diverse data sets, the 
aggregation of all kinds of diverse data sets, fusion of data 
sets, change detection, I mean, you name it. You really need to 
take a tour of some of the advanced laboratories in some of our 
integrators and advanced government laboratories to see the 
magic that they can do.
    Now, the issue really has to do with the way these 
techniques are applied, and standards are what make these 
techniques applicable broadly across our national resources. I 
would argue that it would be far less expensive for us to 
create a policy to apply standards in terms of aggregating 
existing data sets consistently across our national 
infrastructure than it would be to continue to develop new data 
resources. We have data of all kinds; there is data everywhere. 
The biggest problem is that the systems that create the data 
sets can't communicate, and, therefore, two data sets that 
represent adjacent areas can't, in effect, be put together 
because the software that is creating them is simply 
incompatible.
    The technology exists right now so that--shall I say the 
standards exist right now so that if the standards were applied 
uniformly across our country, we would be able to reduce the 
cost of compiling some of these national data sets 
dramatically, and the question is why aren't the standards 
applied. That is what I tried to say before. We don't have a 
policy at the top. We don't have a national policy that says 
that the technology standards have to be applied consistently. 
Now, this is where I think the FGDC has a real opportunity. You 
know, we usually think of the FGDC as having a mandate for data 
standards. In fact, it has a mandate also for best practices, 
and standards for technology fall under that. And I think, 
again, that it is that kind of approach we should take within 
the FGDC, with the leadership that we were talking about 
before, central national leadership that related to the 
building of an information infrastructure with consistent 
standards, I think we would go a long way to solving our 
problems. That is purely a matter of policy and the will to do 
it.
    Mr. Putnam. Dr. Cowen.
    Mr. Cowen. First of all, let me thank you very much for 
inviting me today. I have devoted my life to this business, and 
this is the highlight of it, so thank you very much.
    Mr. Putnam. Thank you.
    Mr. Cowen. I guess my takeaway message is if it is 
important, it shouldn't be voluntary. That is no way to do 
business. A-16 is there; it should have OMB enforcement behind 
it. So I think the structure is there, we have just got to 
enforce it. Maybe you need standards police or whatever we 
need. That needs to be done.
    The other comment I would like to make, put my academic hat 
on for just a moment here, I am the chair of a geography 
department. The Department of Labor has identified 
geotechnology, along with nanotechnology and biotechnology, as 
the hottest labor market issues in this country. We are going 
to face a labor market shortage, and I know that President Bush 
has an initiative to try to address some of those issues, and I 
think it would be remiss of me not to have at least concluded 
with the fact that we need to train the next generation of the 
labor force.
    Thank you very much.
    Mr. Putnam. Thank you very much.
    Before we adjourn, I want to thank all of our witnesses 
from both panels for your participation. I appreciate your 
willingness to share your lifetime of knowledge and experience 
and thoughts with us today.
    I also want to thank Mr. Clay for his participation.
    While the progress we have made toward the development of 
standards and toward collaboration on the issue of collection 
and dissemination of geospatial data is encouraging, we have 
much work yet to complete. Because oversight is not as 
stringent as it should be, we still have agencies acting 
unilaterally to collect and maintain duplicative data and 
systems, resulting in costly redundancies.
    Part of the problem is logistical; the infrastructure for 
efficient information sharing is not yet complete. But as has 
been pointed out, a great deal of it is cultural. Agencies are 
not forthcoming on their GIS expenditures because they have 
little or no incentive to coordinate with sister agencies. In 
fact, they have disincentive: a fear of losing funding for 
future years. The fact that agencies are slipping their 
projects under OMB's radar is in itself disturbing. We need to 
institute more stringent oversight to ensure that redundant GIS 
investments are identified and corrected. OMB must be prepared 
to withhold funding approval and allocation for projects that 
are determined to be redundant and fail to meet the 
requirements of a review process.
    I believe OMB is adding tools and strategies to address the 
issue identified by GAO at this hearing, and perhaps with the 
addition of a central figure responsible for GIS coordination 
or some similar strategy, more efficient investment and 
information sharing will become a reality. I believe that we 
are on the right track and that these efforts will lead to 
significant cost savings as this work advances.
    In the event that there may be additional questions that we 
did not have time for today, the record shall remain open for 2 
weeks for submitted questions and answers.
    I particularly want to thank the second panel for your 
patience with our voting schedule. We appreciate your efforts.
    And with that, the subcommittee stands adjourned.
    [Whereupon, at 5:40 p.m., the subcommittee was adjourned, 
to reconvene at the call of the Chair.]

                                 <all>

</pre></body></html>
